<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                     JOE SKEEN, New Mexico, Chairman
 RALPH REGULA, Ohio                  NORMAN D. DICKS, Washington
 JIM KOLBE, Arizona                  JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          MAURICE D. HINCHEY, New York
Washington                           MARTIN OLAV SABO, Minnesota 
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  133
 U.S. Fish and Wildlife Service...................................  165
 National Park Service............................................  229
 U.S. Geological Survey...........................................  259
 Minerals Management Service......................................  275
 Office of Surface Mining Reclamation and Enforcement.............  297
 Bureau of Indian Affairs.........................................  335
 National Indian Gaming Commission................................  361
 Office of Insular Affairs........................................  375
 DOI Departmental Management......................................  393
                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 72-609                     WASHINGTON : 2001




                       COMMITTEE ON APPROPRIATIONS

                   C.W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)




 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2002

                              ----------                                
        

                                         Wednesday, April 25, 2001.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. GALE A. NORTON, SECRETARY OF THE INTERIOR
ROBERT J. LAMB, DEPUTY ASSISTANT SECRETARY FOR BUDGET AND FINANCE
ANN R. KLEE, COUNSELOR TO THE SECRETARY
JOHN D. TREZISE, DIRECTOR OF BUDGET
    Mr. Skeen. Secretary Norton, let me welcome you as you make 
your first appearance before the Interior Subcommittee. We look 
forward to hearing your comments on the Administration's fiscal 
year 2002 budget request, and also to working with you during 
your tenure as Secretary.
    We applaud your efforts to be fiscally responsible in your 
requests, and we may want to make some adjustments. That ought 
to run a chill down your back. [Laughter.]
    We would like to work with you on that, as we develop the 
fiscal year 2002 Appropriation Bill.
    At this point, let me yield to Mr. Dicks for some brief 
opening remarks. We are glad to have you here.

                   Opening Remarks, Congressman Dicks

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to join with you in congratulating our new Secretary 
and welcoming her to the committee. I enjoyed seeing you again 
yesterday, and am quite optimistic that you and the 
subcommittee can have a cordial and productive relationship.
    As mentioned, we will inevitably have some disagreements 
about certain policies and priorities. But I believe that there 
is also much that we can work on in comity.
    The Interior Department and this committee both serve as 
the stewards for the cultural and natural treasures which are 
the country's heritage. This includes the critical conservation 
and preservation activities in our parks and refuges.
    It also includes, however, the complex challenge of 
carrying out policies for the productive management of the 
valuable timber, mineral, and energy resources, which are found 
in our public lands.
    Balancing the goals of productivity, preservation, and 
environmental responsibility is a daunting task. Coming from a 
timber area, I am acutely aware that these policy choices are 
seldom black and white. As long as we deal with each other 
honestly and openly, however, I think we can find middle ground 
which best serves the American people.
    We will have time after your statement for detailed 
questions, but at the outset, I want to commend you and the 
President for a number of very positive aspects of your budget 
proposal.
    First, I was very pleased to see that you have maintained 
the conservation funding trust fund structure, established last 
year on a bipartisan basis, and that your budget includes an 
overall increase for these critical programs.
    I do not agree with some of the distribution of funds among 
the sub-activities, but think your budget is a good indication 
that there is more common ground than disagreement. I look 
forward to working out our differences among conservation 
priorities.
    I also want to compliment you on your request for increases 
in funding for maintenance of our national parks, and for 
continuing efforts to replace many aging and dangerous Indian 
schools.
    There are also disappointments in your budget, however, 
which I hope we can correct. I think the request for the U.S. 
Geological Survey is somewhat inadequate, and I believe that 
proposals related to endangered species are also going to need 
to be discussed.
    I was also disappointed to see the elimination of a number 
of popular and productive programs, such as the Urban Parks and 
the new Wildlife Grants, established last year. I hope these 
decisions can also be revisited.
    But as I said, I think we have common ground, and I am 
hopeful that with good will and a lot of effort, we can bridge 
the gap in areas where we have differences.
    I look forward to hearing your statement and your answers 
to the questions from all of the members, and good luck on your 
new responsibilities.
    Mr. Skeen. I want to tell you that your full statement will 
be made a part of the record. Please proceed now to give us the 
highlights of your requests.

                 Opening Statement of Secretary Norton

    Secretary Norton. Thank you very much, Mr. Chairman and 
members of the committee.
    Mr. Skeen. It is all up to you now.
    Secretary Norton. I am Gale Norton, Secretary of the 
Interior. Let me introduce the two people who are accompanying 
me today.
    The first of those is Ann Klee, who is Counselor to the 
Secretary. She comes to my office from having been General 
Counsel of the Senate Environment Committee. Also with me is 
John Trezise, who is the Department of the Interior's Director 
of the Budget.
    This subcommittee plays a crucial role in providing 
resources to carry out the mission of the Department of the 
Interior. I look forward to working closely and collaboratively 
with you, as we go forward with this year's budget process. We 
have a great responsibility to preserve America's wildlands and 
national treasures.
    During my confirmation hearings, I spoke about what it is 
to be a compassionate conservative and a passionate 
conservationist, and how those two approaches are very 
complementary.
    This is a budget that is compassionate in the way it 
protects our environment, and conservative in how it spends 
taxpayers' money and gives local people more control over the 
lands they know and the lands they love.
    Overall, the Department's budget is $10 billion. The lion's 
share of that is within the jurisdiction of this committee, 
$9.1 billion.
    This is the second largest budget in the history of the 
Department. If we compare this year with 2000, which is, I 
think, the right comparison to put this into perspective, we 
see that the 2001 fiscal year budget was a spike for the 
Department of the Interior, as it was for many other 
departments.
    The 2001 budget was 20 percent above the 2000 budget. This 
budget proposal is 17.6 percent above the 2000 budget. So it is 
one of the top two highest budgets within the history of this 
Department.
    Our budget has grown rapidly over the last three years, 
outpacing inflation and the rate of discretionary spending. 
During this period, Interior's budget grew 23 percent. The 2002 
budget contains this growth, while still providing robust 
funding.

                    Land and Water Conservation Fund

    Let me highlight some of the major initiatives in the 
budget. The Land and Water Conservation Fund is fully funded by 
President Bush's budget. This would be the first time that the 
Executive Branch has fulfilled its commitment to the states 
under the Land and Water Conservation Fund by proposing full 
funding.
    This would provide $450 million for states. It would also 
provide $450 million for Federal activities, including $60 
million to encourage private efforts to better preserve and 
protect the environment. The state side is an increase of $360 
million over the $90 million that was appropriated in the 2001 
budget.
    Our proposal gives the states a four-fold increase in 
funding to address their highest priority needs. Under our 
proposal, the states would be able to decide for themselves how 
to allocate funding for recreation planning and development, 
wildlife and wetlands conservation, and protection and recovery 
of threatened and endangered species.
    The point is to give the states greater flexibility to meet 
the needs of their citizens through their own decisionmaking 
and prioritization process, while promoting important 
environmental goals, including endangered species conservation 
and wetlands and waterfowl habitat conservation.
    Our new approach to the Land and Water Conservation Fund 
also includes a new $50 million landowner incentive program for 
grants to states and $10 million in private stewardship grants.
    These new grant programs are the parts of the budget that 
are specifically targeted towards the huge percentage of our 
wildlife habitat that is in private ownership. This would allow 
the encouragement of private landowners to enhance their 
habitat. It's based on an idea that has already proven very 
workable in the State of Texas.
    With these new approaches put together, we have four tools 
that the states can use to address endangered species and other 
wildlife conservation: the land and water state conservation 
grants; the new landowner incentive grants; private stewardship 
grants; and the cooperative endangered species conservation 
fund, which is more than double the 2000 funding level.
    With $390 million for the Federal side of the Land and 
Water Conservation Fund, we will be putting a new emphasis on 
input and participation by affected communities. We will pursue 
easements and land exchanges as an alternative to the Federal 
government continuing to just buy land, and take it off state 
and local tax rolls. We will certainly pursue Federal 
acquisition in those areas where there is strong support from 
the local community and where it's necessary, but we'll also 
focus on these other tools.

                        NPS maintenance backlog

    The second major initiative that I'd like to address is 
dealing with the National Park Service maintenance backlog. 
This proposal will help us take care of what we have by funding 
park projects in this backlog.
    The subcommittee has worked closely with our Department to 
fund priority facility repair and maintenance needs. This 
proposal will build on those efforts.
    This subcommittee certainly is familiar with the fact that 
funding for the parks has not kept pace with aging park 
infrastructure, increasing park use, and the addition of new 
units to the National Park System.
    This budget takes the first step in meeting thePresident's 
pledge to eliminate the park system maintenance backlog over the next 
five years. It provides $440 million to maintain historical structures, 
visitor facilities, safe trails, clean waters, and well-kept 
campgrounds.
    As you know, the National Park Service was created to 
protect and preserve some very unique natural resources: the 
vital plants, animals, and ecosystems in the parks. Because of 
that park system need, we are also enhancing funding for the 
National Resources Challenge. This is directed at science in 
the parks and at preserving the ecosystems within the parks.

                            INDIAN EDUCATION

    The third major initiative that I would like to address is 
Indian education. During the campaign, the President pledged to 
``leave no child behind.'' That pledge includes Indian 
children.
    Unfortunately one-fifth of the buildings in the BIA school 
system are more than 50 years old. There are serious 
deficiencies and serious problems for health and safety, as 
well as just for the educational needs of the children who are 
attending those schools.
    This budget includes $293 million for education, 
construction, and maintenance, including $128 million to 
replace buildings at six Indian schools.

                    BALANCING USE WITH CONSERVATION

    The fourth initiative in this budget addresses the need to 
balance land use with conservation. As you know, the Department 
manages nearly one out of every four acres in this entire 
country. The management of these lands plays an important role 
in ensuring domestic energy security, at the same time that we 
provide opportunities for the public to use and enjoy our 
national wonders.
    The budget requests an increase of $7 million to accelerate 
land use planning. These plans ensure that there's public 
involvement in finding that right mix of recreation, of 
preservation, and of use of the resources. With this increase, 
the Bureau of Land Management will be able to assess, revise, 
or amend 42 existing or new plans.
    The budget also includes a $15 million increase for BLM to 
expand its energy and mineral activities, and a $7 million 
increase for the Mineral Management Service work in the Gulf of 
Mexico to ensure that our off-shore program keeps pace with the 
Nation's need for energy.

                              FIRE PROGRAM

    The fire program is also a major area of focus for us. Let 
me assure you that we're moving aggressively to deal with the 
fire fighting needs. We are using the increases that you 
provided in the past, and we want to begin to ensure that we 
are reducing the tremendous fuel load in our forests and 
wildlands.
    Our budget continues and sustains these efforts in light of 
the experiences of last year, which was, as you well know, the 
worst fire season in 50 years.

                          INDIAN TRUST REFORM

    Another important area that we are addressing is the area 
of trust reform. We are looking closely into the matter of 
Indian trust reform. It's an area of tremendous concern for me. 
I know it's a serious problem, and we are attempting to deal 
with the problems that we are finding in that area.
    We've recently reached agreement with Judge Lamberth on the 
appointment of a Court-appointed monitor. I have met with the 
monitor. He will be working with our Department to report to 
the Judge on the status of changes that are being made to 
address the problems of trust management.
    This should provide an objective source of information to 
the Judge and to Congress, so that all three branches of 
Government can be involved in trying to address this problem.
    That concludes my overview. I will look forward to working 
with you as the time goes on.
    [The statement of Gale A. Norton follows:]
    [GRAPHIC] [TIFF OMITTED] T2609A.001
    
    [GRAPHIC] [TIFF OMITTED] T2609A.002
    
    [GRAPHIC] [TIFF OMITTED] T2609A.003
    
    [GRAPHIC] [TIFF OMITTED] T2609A.004
    
    [GRAPHIC] [TIFF OMITTED] T2609A.005
    
    [GRAPHIC] [TIFF OMITTED] T2609A.006
    
    [GRAPHIC] [TIFF OMITTED] T2609A.007
    
    [GRAPHIC] [TIFF OMITTED] T2609A.008
    
    [GRAPHIC] [TIFF OMITTED] T2609A.009
    
    [GRAPHIC] [TIFF OMITTED] T2609A.010
    
    [GRAPHIC] [TIFF OMITTED] T2609A.011
    
    [GRAPHIC] [TIFF OMITTED] T2609A.012
    
    Mr. Skeen. Thank you. Let us begin.

                  SAN CARLOS INDIAN IRRIGATION PROJECT

    The committee is very concerned about the current energy 
situation, as it pertains to the San Carlos Indian Irrigation 
Project. The committee has already approved a reprogramming 
request of $6.5 million, to provide sufficient funds to allow 
the Bureau of Indian Affairs to purchase electric power for 
customers through April.
    What specific action has the department undertaken to 
resolve this problem in the long-term?
    Secretary Norton. This is a serious problem, and we have 
been looking into it. As you know, the Project originally 
included hydro-electric capacity, but that system has long been 
non-operational. They have been buying power on the spot 
market.
    We are trying to meet the needs of the consumers in that 
area, and to come up with a long-term proposal. We are 
currently working on funding for May. It's my understanding 
that we'll require about $8 million, and we are working on a 
proposal to try to have some movement of funds to be able to 
take care of that problem.
    We are exploring options for summer funding, and we will be 
working with you on that. It appears that there is a power pool 
that hopefully we will be able to become involved in, starting 
in September, that will stabilize the energy needs. We will 
continue working on a long-term solution for that, because I 
think the current situation is something that we need to find 
our way out of.
    Mr. Skeen. Thank you, and we hope that that occurs.

                      NATIONAL MONUMENT MANAGEMENT

    During the last two years, a number of national 
conservation areas and national monuments were designated, both 
by Congress and the President. As a result, many members of 
Congress have heard from their constituents concerning future 
management of these areas. How does the 2002 budget address 
this issue specifically?
    Secretary Norton. As I've said in the past, there certainly 
are some concerns with the designation of those monuments, 
because there was not really a process that anyone went through 
beforehand to deal with how those would be funded and exactly 
how the boundaries ought to be drawn.
    We are working on a process to get input from the affected 
elected officials, the Governors, members of Congress, local 
officials, and legislative leaders within the states, as to 
what we ought to do with long-term planning.
    We have $3.4 million within the BLM budget for land use 
planning activity to develop the needed plans for monument 
areas.
    There also is still base funding for those areas that were 
BLM areas. That is approximately $13 million that would be 
allocated to those monument areas.
    Mr. Skeen. Thank you.
    Mr. Dicks?

                           STATE-SIDE FUNDING

    Mr. Dicks. Madam Secretary, your budget, as you mentioned 
and we have discussed this, but we need to do it for the 
record, includes $450 million for state grants in the National 
Park Land Acquisition Account, five times as much as 2001.
    These funds are meant for use by the states. Given that the 
Federal land management agencies have minimal operational 
increases for individual parks, refuges, and public lands, and 
that the budget cuts nearly $90 million in critical USGS 
programs, including fixed cost increases, and there was a 
reduction of $85 million from the Burned Area Rehabilitation 
Program, established last year by Congress, why is there such a 
large increase in state-side funding?
    Secretary Norton. If I understand your question, the state-
side funding is designed for several different things. One is 
to address the needs for conservation of habitat for endangered 
species and to have overall needs addressed for recreational 
activities--the usual use of stateside funds. We are certainly 
seeing a lot of demand from the local level for those kinds of 
things, and we want to address that, but felt that the states 
were really the ones who had the understanding of where the 
needs are.
    There is another aspect to this, and that is the concern 
that we really do have a hard time, every time we keep adding 
units to the park system and to the wildlife refuge system, of 
having the resources to manage all of those lands on a long-
term basis. We keep adding to things, and adding more and more.
    Since I worked at the Department of Interior 15 years ago, 
we have added 50 new units to the national park system and 100 
new wildlife refuge system units.
    I think we ought to be looking to our partners to manage 
lands and to use their ability to care for our new need for 
additional areas being taken in for conservation purposes. We 
are looking to the states to manage these lands and to 
incorporate them into their systems, and are working with them 
to ensure that the needs are addressed.
    I think this has benefits in a number of different ways, 
from the local involvement and the local management, and being 
able to draw on partners that can be targeted for specific 
areas. We think this is a very good win/win sort of proposal 
that meets the needs in an overall way.
    Mr. Dicks. Well, I know that the states are very interested 
in this. But let me ask you one thing, the states have 
struggled in the past to spend the funds provided through this 
program in a timely manner.
    Even if Congress were to seriously consider this 
request,which we will, is it not impractical to expect that the states 
are capable of ramping up to spend these funds, including hiring staff 
and providing the 50 percent match, and that is the hard part here, I 
think, in fiscal year 2002, when they have been unwilling to take care 
of the funding for these programs in the past?
    Secretary Norton. As a former state official, I can 
certainly say that across the country we see states really 
responding to the public interest in having more open space and 
having more recreation lands, as well as conservation.
    The states today are very sophisticated in their approaches 
to habitat management and to recreation management. Many states 
have passed new initiatives for open space. I know Colorado is 
one of those. I think the states are really primed to take on 
this responsibility.
    We met with the National Governors Association and 
discussed this with them. They are very gung-ho to start 
playing their role in this process.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Skeen. Mr. Hinchey?
    Mr. Hinchey. Well, thank you very much, Mr. Chairman, and 
Secretary Norton, congratulations on your appointment. It is a 
pleasure to have an opportunity to meet you.
    Secretary Norton. Thank you.

                              LWCF Funding

    Mr. Hinchey. I have a couple of questions about the funding 
priorities in the budget. I would like to start, first of all, 
with the Land and Water Conservation Fund, which the 
President's budget says is fully funded.
    Apparently it is, except that it funds the stateside 
portion of the Land and Water Conservation Fund fully by taking 
money out of another fund, which was established by the 
Congress last year, the Land Conservation Preservation and 
Infrastructure Improvement Fund.

   Land Conservation Preservation and Infrastructure Improvement Fund

    Last year, that fund was started at $1.2 billion, and it 
was to be funded at $12 billion, over a period of six years. 
Apparently, the way the President funds the Land and Water 
Conservation Fund is by taking $2.7 billion out of the Land 
Conservation Preservation and Infrastructure Improvement Fund, 
which was authorized by the Congress, and funded for that full 
amount in last year's budget.
    So is this not kind of a shell game that we are 
experiencing here, saying we are fully funding the Land and 
Water Conservation Fund, but taking money out of another very 
important fund that was established by the Congress in the 
budget last year?
    Secretary Norton. I'm still learning what happened last 
year and catching up. I assume what you're talking about is the 
conservation spending categories?
    Mr. Hinchey. I am talking about the Land and Water 
Conservation Fund, which is fully funded.
    Secretary Norton. Basically, what we are doing is still 
funding that conservation spending category, so we are using 
the money for all of the same things. What we are looking at is 
actually increasing the funds that are under the conservation 
spending cap.
    Mr. Hinchey. What you are doing is, you are increasing the 
funding of the Land and Water Conservation Fund. We are talking 
about two separate funds here now. There is the Land and Water 
Conservation Fund, and then there is this other fund, which was 
set up specifically by the Congress last year to deal with 
other programs.
    It had an interest in the loss of open space, protection of 
wildlife habitat, funding of urban parks, historic 
preservation, and opportunities to control sprawl development.
    These were the specific purposes of the funding in the Land 
Conservation Preservation and Infrastructure Improvement Fund. 
Now the funding for that is cut by $2.7 billion less than what 
was approved.
    Secretary Norton. We are doing really exactly the same 
thing that was the original plan for this, which is spending 
money on all of those same things, and increasing the amount of 
money that is allocated. It's my understanding that we have 
about $160 million more in our funds this year than what the 
Congressional plan would have been to put into those 
categories.

    [Correction: The actual number is $104 million and not $160 
million as stated in the testimony.]

    Mr. Hinchey. I would ask you to look at that, because 
that's not the way it appears. It appears that you have at 
least $2.7 billion less. I would like to mention some of the 
specific cuts.
    Secretary Norton. We would be very happy to meet with you.
    Mr. Hinchey. Yes, I do not want to be talking past each 
other here.
    Secretary Norton. We are just putting different labels on 
the same things. I think that is what we are doing.
    Mr. Dicks. If the gentleman would yield, just for a yield?
    Mr. Hinchey. Sure.

                  Conservation Spending Sub-categories

    Mr. Dicks. I think the point here is under the program last 
year, there were a number of sub-categories. Even though you 
have increased the overall amount of money, a number of sub-
categories have been eliminated, and that is what makes the 
difference here. I think the $2.7 billion is over the six year 
period.
    Mr. Hinchey. $2.7 billion is over the six year period, so 
it is a fraction of that, each and every year, that $2.7 
billion, which is cut.
    According to the budget, or the proposal that you're 
offering us, state wildlife grants are cut by $100 million; the 
Cooperative Endangered Species Fund is cut by $50million; the 
North American Wetland Conservation Fund is cut by $25 million; the 
Forest Legacy program, which buys or secures easements on threatened 
forest land, is cut by $30 million. The Historic Preservation Fund is 
cut by $57 million, and urban parks are cut by $30 million. Now that's 
in that $2.7 billion.
    Secretary Norton. I will give you a brief answer, and then 
turn it over to John Trezise to provide you the more technical 
answer.
    Basically, what we are doing is shifting from decisions 
that were made by my department, basically Washington-based 
decisionmaking, about how exactly these funds would be 
allocated and giving the states a greater ability to make these 
decisions, and taking advantage of their knowledge.
    Mr. Hinchey. I understand that is exactly what you are 
doing. But in doing so, you are undercutting a Congressional 
program and a Congressional interest in doing certain things in 
specific areas.
    I know that what you are doing is increasing the stateside 
portion of the Land and Water Conversation Fund, turning more 
money over to the states, which is a fine thing. I do not 
object to that. I think that that is terrific, in fact.
    But in order to do so, you cut money from this other 
specific program, which the Congress set forth and designated 
that the money be spent in specific ways, and you have cut each 
of the programs by the amount that I stipulated.
    Secretary Norton. Let me ask John Trezise to answer you 
with the specifics.
    Mr. Trezise. Thank you, Secretary Norton.

                     conservation spending category

    Mr. Hinchey, as you have said, the Congress last year 
established the conservation spending category, which is a 
separate budget cap under the Budget Enforcement Act, to 
provide funding for conservation programs, wildlife programs, 
and outdoor recreation programs. The Department of the 
Interior's portion of that funding last year was $877 million.
    The President's proposal this year is to increase 
conservation spending category funding for the Department of 
the Interior to almost $1 billion. That is an increase of $104 
million.
    Mr. Hinchey. Now let me ask you this, is that increase 
specifically within the Land and Water Conservation Fund 
portion?
    Mr. Trezise. In last year's budget----
    Mr. Hinchey. No, I am talking about this year's budget. The 
money that you just stipulated, is that specifically in the 
stateside portion of the Land and Water Conservation Fund?
    Mr. Trezise. The increase from last year's appropriation is 
reflected by the increase in the Land and Water Conservation 
Fund.
    Mr. Hinchey. Exactly, and where does that money come from?
    Mr. Trezise. It comes from receipts from the outer 
continental shelf.
    Mr. Hinchey. But at the same time that you are adding that 
money into the stateside portion of the Land and Water 
Conservation Fund, you are cutting the Land Conservation 
Preservation and Infrastructure Improvement Fund by the amount 
that I stipulated.
    So the point I am making is, you are taking a program, 
which was designated by the Congress, and by which the Congress 
established certain priorities for funding, and you are 
seriously cutting funding in those specific areas, and then you 
are turning money over to the states and allowing them to use 
it as they see fit. For that, I have no objection.
    The objection that I have, and the questions that I am 
raising are why are you under-cutting this other fund, in order 
to add to the stateside portion of the Land and Water 
Conservation Fund?
    Mr. Trezise. Mr. Hinchey, I think the problem that we are 
having is, the Land and Water Conservation Fund, including the 
stateside grants, are part of the broader conservation spending 
program that the Congress put in place last year.
    Mr. Hinchey. I understand that, but we are talking about 
two specific funding categories here.
    Mr. Trezise. Yes, within that fund, there are several 
categories.
    Mr. Hinchey. No.
    Mr. Skeen. Let him finish his answer.
    Mr. Dicks. John is right here with respect that under this 
conservation spending category, it does include the funding for 
the stateside land and water conservation program.
    Last year, we funded it at $90 million. This year, they 
have increased it at $450. The gentleman from New York is 
correct in saying that when you look at what happened to the 
fund we created last year, a number of sub-categories were 
reduced at the same time we increased the funding for 
stateside.
    So overall, the money is more, but when you look at all 
these sub-categories of very important programs that the 
Congress supported, and this was bipartisan, there are a number 
of very serious cuts, and the elimination of programs like 
UPARR. Is that not correct?

                Expanded Purposes of State-side Program

    Mr. Trezise. Yes, but Mr. Dicks, the President's proposal 
is to expand the purposes that states may use the stateside 
Land and Water Conservation Fund Program to encompassurban 
recreation, as well as wildlife issues.
    The President's concept is that in New York, urban 
recreation and other outdoor recreation issues may be the 
highest priority for the state. Their share of the very 
substantially increased amount that they will have available 
under the Land and Water Conservation Fund could be devoted 
primarily to recreation, including urban recreation.
    In Wyoming, where there are relatively fewer people and 
they have significant wildlife issues, they may choose to focus 
entirely on wildlife issues, beyond the amounts that they could 
have focused on wildlife issues under the narrow categorical 
grant programs.
    Mr. Hinchey. I fully understand that, and I think that 
makes perfect sense. I am very supportive of that.
    My only complaint or argument with you is, at the same time 
that you are doing that, you are cutting another fund that was 
specifically set up by the Congress, in last years 
appropriations bill.
    In that bill and under this fund, Congress stipulated that 
certain amounts of money would be spent for specific purposes: 
state wildlife grants, cooperative endangered species fund, 
wetlands conservation, forest legacy, historical preservation, 
urban parks. You are cutting each and every one of those 
programs.
    So at the same time that you are doing something which is 
laudable, giving more money to the states, so they can use it 
for purposes that they deem to be appropriate, you are also 
cutting the Federal portion of a program that was designated 
specifically to be carried out in certain and specific ways.
    That is my argument with you, and I would hope that you 
would not do that. I think that what the Congress did last year 
was correct. It was done, as Mr. Dicks said, in a bipartisan 
way, and stipulated certain priorities.
    I would hope that you would re-examine what was done, and 
when you come back with your full submission, that you would 
ask for the funding in those categories, which were set up by 
Congress last year.
    Secretary Norton. Representative Hinchey, I look forward to 
working with you on this. I think it is a difference in 
philosophy. However, our approach is not, for example, in 
dealing with urban parks, for my department to decide what 
parks are needed within our cities of this country.
    What we are saying is that the people who are in the state 
capitals probably have a better understanding of that than I 
do. So we are trying to ensure that that decisionmaking is 
involved. But I think really what we are doing is shifting the 
mechanics by which these programs are carried out.
    Mr. Hinchey. Well, I just want to differ with you on that. 
I certainly respect your philosophy, and I understand that 
there is a difference in philosophy, between this 
Administration and the previous one, and between this 
Administration and certain members of the Congress.
    You believe that more money ought to go to the states, and 
that's a fine thing. I suppose that it is that philosophy which 
drives the increase in the stateside portion of the Land and 
Water Conservation Fund, which I applaud.
    However, at the same time that you are doing that, you are 
cutting other specific Federal programs, which have been 
designated by the Congress to carry out specific, very 
important conservation, historic preservation, and other 
purposes. I do not like the fact that you are doing that.
    Mr. Skeen. Madam Secretary, perhaps we can discuss this 
more after each member has had an opportunity to ask questions. 
Let us now take Mr. Kolbe.
    Mr. Kolbe. Thank you very much. Secretary Norton, welcome, 
and we are delighted to have you here before the committee.

                     san carlos irrigation project

    Just in response to the first question that was asked, or a 
comment that was made by Mr. Skeen on the San Carlos irrigation 
project, that kind of was deja vu all over again for me, since 
I began work on that legislation in 1985, and got it enacted 
into law in 1989; and but for a single vote of the tribe, we 
would have that privatized a long time ago, and we would have 
avoided this problem that we are now faced with.
    Although most of the irrigation district is no longer in my 
Congressional District, there are a number of users of the 
power itself that are in my district, and are being hit by 
these very high prices, because they are buying spot power, as 
you know.
    We need to go back and look at that and get that 
legislation and get the tribe to agree to privatize that, and 
move very quickly. The legislation has been on the books once 
and passed into law. We failed to implement it. It was not your 
fault, by any means, but we need to take another look at that.
    Secretary Norton. I applaud your foresight on that, and 
wish other people had seen the scenario coming on that.
    Mr. Kolbe. I think it was probably the single-most 
frustrating thing that I have worked on in this Congress. You 
are going to have a lot of those frustrating things.
    I want to ask a couple of questions about conservation 
plans and partnership programs. I realize the parochial nature 
of some of these questions, but I guess it goes to the old 
adage that all politics are local here.

                    sonoran desert conservation plan

    We have, in Southern Arizona, what we think is one of the 
leading and ground breaking conservation plans called the 
Sonoran Desert Conservation Plan. I think you may have 
evengotten it to your level, where you have had a chance to hear about 
it.
    It is a team effort that is designed to provide for the 
protection of endangered and threatened species, the 
conservation of wildlife habitat and open spaces, and at the 
same time, to allow for appropriate and sustainable growth in 
the area.
    I am very supportive of the process this plan is following, 
which is trying to bring the different communities of interest 
together, to determine the proper balance, but it certainly is 
not an easy task. We have been struggling to find a common 
ground in this area for most of this century. I think you are 
obviously familiar with the things that were done in Austin, 
Texas and San Diego.
    We are on a very aggressive timetable with this plan, in 
contrast to San Diego, which took eight years, I believe. We 
are looking at trying to get this done in a couple of years.
    It really cannot be done, however, if we do not have the 
support of the Administration on this. It is the most complex 
plan that was every built. It is 10 times the size of the San 
Diego Multi-Species Program, and that was considered to be the 
most complex conservation plan ever designed.
    We have had in the past some modest funding for this, to 
supplement the efforts of the city and county and state to try 
and draw all this conservation plan together. You are 
specifically eliminating the funding for that.
    It does say, however, that it is planned to be ``a 
watershed-based, multi-partner effort.'' The Pima County SDCP 
would be highly competitive for funding under the Cooperative 
Endangered Species Conservation Fund, the Habitat Conservation 
Plan Grant's Program. That is a lot of words there.
    So I guess my question is, is your eliminating the specific 
funding for this in opposition to Congressionally-designated 
projects?
    Secretary Norton. We are very supportive of this kind of a 
project, and of the type of solution that has been arrived at 
through the Sonoran Desert Plan. It is the kind of thing that 
we do want to encourage.
    Our proposal would be to have that come in through one of 
our grant programs, instead of having it be Congressionally 
earmarked. I think it is a difference, just in terms of how we 
go about following through with that kind of a proposal. Our 
proposal would be to incorporate that within one of our 
existing grant categories.
    Mr. Kolbe. Well, I appreciate hearing that. Can I say that 
you have given me some assurance that if we do not proceed with 
having an earmark for this that it will receive funding? I 
understand the reasons the Administration opposes earmarks, and 
I am not in favor generally of earmarks, either; although I 
think sometimes they are useful. I think they are reasonable, 
because I think that is the role of Congress to decide how some 
of the dollars are going to get spent. But on specific 
projects, I do not generally approve of earmarks.
    But can I have some assurance that if that were the case 
and we did not have an earmark, that this is going to be 
funded, and the work is going to continue on this plan?
    Secretary Norton. I will certainly be happy to explore that 
further and get back to you. I want do to more than just a spur 
of the moment statement on it. I would like to really take a 
look at that, and try to give you a firm position on that.
    Mr. Kolbe. I would appreciate that. That would obviously 
determine whether I would pursue actively in this subcommittee 
an earmark or not for it.

                      upper san pedro partnership

    The same question goes to another one that has been in the 
works and is also extraordinarily complex in a different way. 
There is not as much population involved in the Upper San Pedro 
Partnership, which is one that your predecessor took a great 
deal of personal interest in.
    This is an extraordinarily valuable corridor. It has not 
only national, but international implications, because the 
river runs from Mexico into the United States, and the 
headwaters are in Mexico.
    The Secretary of the Commission on Environmental 
Cooperation, which was established under NAFTA, the North 
American Free Trade Agreement, initiated an investigation about 
maintaining a high quality, self-sustaining riparian ecosystem 
within the San Pedro Riparian National Conservation Area, which 
we established 12 years ago.
    This is the most extensive riparian ecosystem that remains 
in the desert southwest, and has the highest bird diversity of 
any place in the United States.
    It is complex because of the number of governmental 
elements that are involved here. We have not only the BLM, but 
we have the U.S. Army, Ft. Huachuca is located there, the U.S. 
Forest Service, the U.S. Geological Survey, the National Park 
Service, the Agricultural Resource Service, the Arizona 
Department of Water Resources, the Arizona Department of 
Environmental Quality, the Arizona State Land Department, the 
Arizona Association of Conservation District, Cochise County, 
the Town of Bisbee, the City of Sierra Grande, Huachuca City, 
Herford National Resource Conservation District, and The Nature 
Conservancy. I think I've got most of them in there.
    So it is a critical thing, and I would ask the same 
question. You eliminated the funding for this project. Is this, 
again, because of your opposition to earmarks, and would you be 
willing to give me some response as to whetheror not you think 
this is the kind of project that is worth continuing the involvement of 
the department.
    Secretary Norton. We certainly could not hope to bring 
together that kind of a coalition on our own. So we will work 
with you on that.
    Again, I believe this is covered by other existing funding 
sources, and part of the overall pools of funding from the 
Cooperative Endangered Species Fund, or from the stateside's 
Land and Water Conservation Fund. So there are at least two 
sources that we can look to.
    We would be happy to talk with you further about specifics 
and provide some more specific information.
    Mr. Kolbe. Thank you. I have a couple more questions that I 
will get in on my next round.
    Mr. Skeen. Mr. Moran?

                         STATE WILDLIFE GRANTS

    Mr. Moran. Thank you, Chairman Skeen, and good morning 
Secretary Norton.
    Let me get back a bit to this Land and Water Conservation 
Fund, because it is a major initiative in your budget.
    The problem that some of us have is the historical and 
substantial experience that many states, in fact, are not 
likely to use this money to supplement ongoing efforts, but to 
supplant those efforts.
    The reason why we established the State Wildlife Grant 
Program last year was that there was a crying need for 
conservation of declining species. Yet, in a 1999 report called 
Passing the Buck, and I will quote, ``Most state governments, 
many of which carry large budget surpluses, provide little or 
no financial support to their fish and wildlife agencies, 
depending almost exclusively on hunting and fishing fees.''
    That, in fact, is the case in a number of states, and that 
is why funds were earmarked in the first place. If we could be 
confident that funds would be used to supplement, and not 
supplant, existing programs, then there would be less 
inclination to earmark money.
    So my question to you is, would you support a maintenance 
of effort provision in this legislation and in this program?
    Secretary Norton. I would be happy to work with you and 
explore that option. I am a little concerned about how we would 
go about enforcing that, because I know that really creates 
some difficulties.
    But I would assure you that I have had conversations with 
state heads of wildlife agencies, and that they are very 
enthusiastic about focusing a lot of these resources on 
endangered species habitat protection.
    So my discussions with the states have found them to be 
very supportive of this. The Governors, as well, are very well 
focused on their needs to address some of these concerns. So 
that is what I am hearing from them.
    Mr. Moran. Well, I think we will all hear that they are 
enthusiastic about getting more money and more flexibility. 
Some of them will use it for the purposes for which it was 
intended.
    It is those other states that will use it as an opportunity 
simply to take the place of funds that are already being spent. 
That has happened in my state, and I know it has happened in 
several other states with Federal money.

            LANDOWNER INCENTIVE/PRIVATE STEWARDSHIP PROGRAMS

    This is the next thing that I wanted to ask you about. The 
budget diverts $60 million from the Federal Land and Water 
Conservation Fund to two new grant programs that provide 
incentives to private landowners for habitat conservation.
    The problem with that is we have a long line of people who 
are more than willing to sell land that the Federal government 
has identified as being appropriate for permanent land 
protection, yet we are going to put this $60 million into what 
is basically very temporary protection, instead of using it for 
permanent protection of this land.
    That would be a concern that we would have for these two 
new grant programs. Do you want to address that briefly?
    Secretary Norton. Let me say that I appreciate the 
opportunity to explain why we are enthusiastic about this 
program. I think you can protect a lot more acreage of habitat 
through this sort of an approach than through land acquisition.
    Coupled with the efforts that the landowners themselves 
were willing to put in actually carrying out some of this work, 
they were able to add thousands of acres of habitat with the 
cost of just a few thousand dollars.
    So it really gives you the potential opportunity to have 
some really significant benefits for just a few dollars an 
acre.
    Mr. Moran. Obviously, that is the best rejoinder. I hope 
that that example can be replicated, because the program can be 
abused.

                   U.S. GEOLOGICAL SURVEY REDUCTIONS

    The last area that I want to ask you about is the U.S. 
Geological Survey, because you have really slashed and burned 
there, as far as I can see, and that is troubling.
    One of the explanations that you have used is you say the 
cuts in the U.S. Geological Survey are going to be made up in 
other parts of the budget. Yet, I can not find what Federal 
agencies assumed the cost of the programs that are being cut in 
the U.S. Geological Survey.
    Do we have all that information, or do you have a sheet 
that can show us that, at least for the record?
    Secretary Norton. Congressman, this is something that is 
still in the process of being negotiated and finalized. 
Ourconcern was that there are many aspects of USGS where we do have 
some cooperative efforts, but there are other areas where the USGS is 
assuming the full cost of programs that are used by other Federal 
agencies, by states, or by the private sector.
    So we wanted to explore ways of trying to have them bear 
their portion of the burden, and that was one of the ways in 
which we restricted USGS.
    The National Water Quality Assessment Program is an example 
of that, because that is something that does not really serve 
the Department of Interior's core programs as much as many 
other agencies. There also is some potential duplication, so we 
are exploring with potential partners in that, to see what 
approaches might be utilized.

               NATIONAL WATER QUALITY ASSESSMENT PROGRAM

    Mr. Moran. Well, I am glad you mentioned the National Water 
Quality Assessment Program, because you have got a $30 million 
cut there. It is about a 30 percent reduction. I think we would 
be interested to know what study units would be eliminated as a 
result.
    Last year, the committee provided additional funding to 
restore lost and downgraded existing stream gauges. What we 
want to know is whether the proposed reductions in this budget 
are going to affect particularly those that are part of the 
National Flood Warning Network.
    Whether it is a result of global warming or whatever, the 
fact is, we seem to be having floods that are costly and 
extensive. We have only to look at the recent flood in the last 
couple of weeks.
    So I think we would be interested to know how that affects 
the National Flood Warning Network, this $30 million reduction 
in national water quality assessments.
    Secretary Norton. We do view that as a very important 
program. That is one of the Department of the Interior's core 
activities that is closely related. So there are no reductions 
proposed in the stream gauging program.
    Mr. Moran. There is no reduction in the stream gauging 
program?
    Secretary Norton. That is correct.

                   U.S. GEOLOGICAL SURVEY REDUCTIONS

    Mr. Moran. Well, I would like to get more information. I 
will not take the committee's time now, but I would like more 
specifics. It may be coming up anyway, as to the U.S. 
Geological Survey substantial reduction in its activities, and 
how it is going to be picked up in other parts of the Federal 
Government.
    In the Washington Metro Area, we are relying upon the 
Geological Survey to do a number of studies that deal with 
development and transportation and sustaining our natural 
resources. It looks as though that effort is going to be 
compromised by cuts in the Geological Survey budget.
    So we will have some more specific questions, but I will 
not take up the committee's time now.
    Mr. Skeen. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman, and welcome 
Secretary Norton.

                         LOWER SNAKE RIVER DAMS

    President Bush, from time to time, has made declarations 
about his opposition to removing dams on the Lower Snake River. 
Is that your view, as well, given the short amount of time that 
you have had to be involved in the department and understand 
this issue?
    Secretary Norton. The President made clear during his 
campaign activities that that was his position, and we plan to 
carry forward with that position as to those Lower Snake dams.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Mr. Nethercutt. Thank you. There has been some press 
speculation that the Administration's position may be unclear 
as it relates to the Arctic National Wildlife Refuge and 
drilling there.
    Just for clarification purposes, or for the committee's 
benefit, would you kindly articulate the Administration's 
position on that issue?
    Secretary Norton. I have had the interesting experience, 
along with Administrator Whitman, of being hit on the TV talk 
shows this past Sunday with a news report about a statement 
from Carl Rove saying that the Administration was changing its 
position on that.
    Luckily, I had the opportunity, in the interim between 
Administrator Whitman being questioned about it, and my being 
questioned about it, to actually talk with Carl Rove, and find 
out that he had said nothing of the sort, and did not know 
where the reporter had gotten that information. Obviously, it 
caused some confusion under that situation.
    But the Administration is still carrying forward with its 
proposal to present information to the Congress about the 
environmental feasibility of going forward with an exploration 
and drilling program for the ANWR area.
    It is a decision for you all as to whether we have 
satisfied your environmental criteria. I have traveled to that 
area personally, and have gone out in the 75 below windchill to 
look at the approaches that are being used. There are some very 
high tech approaches that should be able to be utilized.
    Mr. Nethercutt. What are the Administration's estimates of 
the oil and gas reserves in the refuge?
    Secretary Norton. The overall assessment by the Department 
of the Interior, there are different numbers out there that 
refer to different areas. It is for the 1002 area itself, it is 
a 7.7 billion barrel mean estimate.
    Mr. Nethercutt. Do we currently conduct oil and gas 
drilling or exploration on other wildlife refuge areas in the 
country?
    Secretary Norton. Yes, we do; there are a number ofrefuges 
that do have active oil and gas operations taking place on them right 
now. I do want to point out that the 1002 area is a little different in 
that for a very long time, it has always been in a special category of 
being assessed by Congress for its oil and gas potential, because of 
the vast reserves there.
    Mr. Nethercutt. That assessment area is how many million 
acres, the area to be assessed; is it about 1.8 million acres? 
I am not testing your memory, I am just trying to get a sense 
of it.
    Secretary Norton. It is 1.5 million acres.
    Mr. Nethercutt. And the footprint, if I am informed 
correctly, would be about 2,000 acres out of the 1.5 million 
acres, out of the 19.0 million acres in the refuge; is that 
correct?
    Secretary Norton. That is correct, and the overall refuge 
size is about the same size as South Carolina. Having gone 
there now, I understand what they are talking about. We do not 
have the footprint being affected by roads being built or any 
other permanent type of transportation infrastructure, because 
they use ice roads that melt away when the summer comes.
    The pads, themselves, are now at about 15 acres for 
drilling activities. From that, they can now reach vast areas 
underground.
    So the analogy is to the District of Columbia. If you had 
one of the drilling pads on the location of the White House, 
you could reach oil underground anywhere within the District of 
Columbia. So that is the technology that is being used. Because 
of that technology, it would only have a footprint of about 
2,000 acres, the size of an airport.
    Mr. Nethercutt. Is the Administration sensitive to the need 
to balance wildlife concerns and preservation and environmental 
preservation, as it also seeks to maximize the use of American 
lands for the production, and meeting the energy needs of the 
country?
    Secretary Norton. Yes, it's very important that we take the 
steps that are necessary to preserve our environment at the 
same time we deal with the energy problems that are facing us. 
We want to try to have both a very healthy environment, and 
also have jobs and the ability for people to drive their cars 
and heat their homes.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    Mr. Skeen. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    Madam Secretary, welcome to the committee. We are glad to 
have you here.

                     CONSTRUCTION DESIGN AND WASTE

    One of the things that I was very disturbed about as a 
taxpayer was the story of the $300,000 outhouse, built by the 
National Park Service, by the previous Administration, and 
other stories that were symbolic of waste. Spending other 
people's money never seems to bother Washington.
    Can you make a promise that your Administration is going to 
be a lot more sensitive about spending? You know, it is 
possible that that was all that would work. I do not know. I 
seriously doubt it, but we constantly hear stories like that. 
Is the day of that going to be over?
    Secretary Norton. At my very first meeting with the Park 
Service, that was something I asked them specifically about. We 
have a new system that is being put into place to track 
construction expenditures to be able to have the kind of 
oversight that one would expect in handling money wisely. I 
have urged them to look at ways of trying to minimize the 
expenses, to have designs that could be used in several 
different places, as opposed to uniquely designing each and 
every outhouse in every park. So I think there are some things 
that can be done to ensure that that is handled well.
    But I have also felt it very important that the people who 
come into my department have good management backgrounds, have 
the ability to oversee these kinds of things. So everybody that 
I have talked to for positions like this, that is one of the 
questions that I have asked them, to try to assure myself that 
we are going to be taking care of this well in the future.

                        INDIAN CASINO APPROVALS

    Mr. Kingston. There was also a very high profile scandal 
involving Indian Affairs casino approvals and so forth. Are you 
going to crack down on that kind of thing?
    Secretary Norton. We are again concerned about that issue. 
That is something that as I select people, I want to be sure 
that we are getting people in who are sensitive to that. We are 
looking into land into trust regulations, which is impacted by 
taking land into trust for new casinos. We have re-opened those 
for re-examination.
    It is an area, along with our trust reform issues within 
BIA, that is a very daunting management task. I have to say 
that it is something that I think has some serious problems to 
it, and I don't lightly just say, those problems are all going 
to go away. We are going to work very hard to try to make sure 
that happens.
    Mr. Kingston. It was not my intention to ask this question 
next, but since you have alluded to it, we actually had a 
hearing on the trust.

                         FRACTIONATED HEIRSHIPS

    Mr. Chairman, I do not know, when we were having our 
hearing, we did not get this chart, but this chart just would 
show the problem with heirship fractionalization, and how you 
start out here in 1870 with one couple, and then you come down 
here, to the extent that you would have landowners with .4 
percent of an interest in 40 acres of land.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2609A.013
    
    [GRAPHIC] [TIFF OMITTED] T2609A.014
    
    Mr. Kingston. I do not know if any committee members want 
to see it, but it is a tremendous problem in terms of tracking 
that. Here was a specific case that started out with 
``killsatnight Whitegrass'' and the errors related to that, and 
how complicated this is, because of the fractionalization.
    I will just pass that out to the committee members, because 
just as a follow-up, when we had our hearing on this, I was 
interested in that.
    But do we have enough money committed to help you guys kind 
of work our way out of it, because it is a problem that is 
totally non-partisan. It is really non-philosophical, except 
for trying to do the right thing to a people, which is very 
important.
    But do you have enough money in your budget to deal with 
this, do you feel comfortable with it, and do you have a good 
grip on the size of the problem?
    Secretary Norton. Those are great visuals. I had never seen 
those before, as a way of explaining what the problem is. It is 
a serious problem.
    The Indian Land Consolidation Act that was passed last year 
is something that we are implementing in order to essentially 
buy back those kinds of interests and turn those over to the 
tribes so that we do not have this same kind of huge management 
problem of keeping track of all of that. We do have funding in 
there of $11 million.
    Mr. Kingston. Yes, it is $11 million.
    Secretary Norton. We are working to try to minimize those 
kinds of fractionation problems.
    Mr. Kingston. I think it is a $2 million increase. But the 
reason why I brought it up and wanted the committee members to 
see that chart is because it is a real issue. It is a non-
partisan issue. It is just one that we have to work through.
    Secretary Norton. I think we are well situated with that 
funding, to be able to move forward with getting that problem 
under control.

                      Maintenance Backlog Funding

    Mr. Kingston. Then I need to bound around on you a little 
bit here and there. There were no increases for backlogs on FWS 
or BLM or BIA. Is that correct?
    That is something that Chairman Skeen, and Chairman Regula 
before him, have really pushed to whittle down this $1.4 
billion backlog in the Department of the Interior lands. We are 
a little worried that you do not have enough in there.
    Secretary Norton. We are aware of the backlog problems in 
our other agencies, and we do have some increases for those. 
Fish and Wildlife funding is a $10 million increase this year. 
That has more than doubled since 1998. For the BLM operations, 
it is more than 10 times what it was in 1998. So we are making 
increases in those areas.
    The ongoing problem is, those are the kinds of things that 
fall through the cracks, when everybody focuses on the high 
visibility areas. But I believe that it is important to take 
care of what we have.
    Mr. Kingston. Well, I know there is always the debate 
between maintenance and backlog and everything that you have to 
do. But it is something that I think this committee, probably 
on a non-partisan basis, is going to watch very carefully.

                      GAO Report on the Everglades

    There was a GAO report on the Everglades. This committee 
also has worked real hard on Everglades restoration and so 
forth. It almost makes the chart of the Indian land trust funds 
look simple, you know, all the local agencies, the state 
agencies, the different Federal agencies that are playing a 
part in it.
    The GAO report says additional work is needed. Have you 
seen the report, or I am sure your folks have; have they 
briefed you, are you on top of it; are you comfortable with 
where it is going?
    Secretary Norton. I will look into that. I have not seen 
that specific GAO report.
    Mr. Kingston. Okay, well, unfortunately, in Washington, we 
spend a lot of money quickly, and then accountability goes out 
the door.
    But the GAO report emphasized there needed to be a lot of 
accountability. I hope that you all will make that. Because if 
you do not, you are going to be sitting on a future scandal.
    Mr. Chairman, do I still have any time?
    Mr. Skeen. Yes.
    Mr. Kingston. Okay, well let me yield back, and I look 
forward to another round.
    Mr. Skeen. Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman. We are having a 
hearing with the Secretary of Education, and so I have to break 
away for a few minutes.
    First of all, Madam Secretary, I want to compliment you on 
your interview with Cokie Roberts. I thought you handled it 
extremely well.
    Secretary Norton. Thank you.
    Mr. Regula. That is probably partly because I agreed with 
what you said. [Laughter.]

                        State-side Funding Uses

    But I understand Mr. Dicks has covered the issue of 
stateside. I am always troubled by distributing money to the 
states to build tennis courts and golf courses, when we have, 
as Mr. Kingston pointed out, this huge backlog of maintenance.
    I understand that we are going to get a report that 
indicates it is in excess of $1 billion, plus the needs of the 
parks and the agencies under your jurisdiction. It seems to me 
that is our primary responsibility. The states havethe money 
and they have tax systems and local communities. But I will not pursue 
that.
    Secretary Norton. If I can follow-up quickly. I do like the 
idea of golf courses, being a golfer, myself.
    Mr. Regula. I like the farm, personally. [Laughter.]
    Secretary Norton. I think we have really expanded the 
opportunities that are available to the states, and I hope they 
will really focus on the things that I think are the higher 
priority types of approaches.
    We are expanding the Land and Water Conservation Fund uses 
to include habitat conservation, open space, all of the really 
conservation-oriented needs, so I really see us moving that 
Land and Water Conservation Fund from being just the sort of 
swimming pool type of recreation activity to really being 
something that is an overall conservation focus.
    Mr. Regula. And that might supplement Federal activities?
    Secretary Norton. Absolutely.

                              USGS SCIENCE

    Mr. Regula. My other concern is that we wrestled with the 
USGS issue. I think in the past appropriations, we got it 
consolidated in one place, feeling that we should not have a 
duplicative science agency approach in all the different 
agencies, but say, here is the one agency that is our resource 
when it comes to science.
    As I understand what you have provided in the 
appropriations process, it is to diffuse this again. Probably 
the USGS took the biggest hit that I guess I can observe, in 
terms of what has been allocated.
    I note that you will be the guest, I think it is Friday, at 
USGS headquarters. I hope you will take a good look at what 
they do out there, and maybe re-think a little bit how, in 
terms of providing services to all the agencies, that there is 
some merit to having it consolidated, just in terms of 
accountability, as Mr. Kingston was talking about.
    I just would be interested in your observations as to why 
the change. I wrestled with your predecessor over that, when he 
wanted to go the same direction you do. We finally got it 
consolidated to have one agency that is the premiere science 
responsibility in the public lands area.
    Secretary Norton. It is a tough balance to try to find, 
because we want to have the critical mass of scientists who can 
talk to other scientists and enhance their research. We also 
want to have the ability for land managers to be able to easily 
draw upon scientific knowledge. We need to have both of those 
types of activities taking place. So we are trying to evaluate 
that.
    We will look forward to a continuing dialogue with you on 
that.
    Mr. Regula. Do you feel that your approach will not result 
in duplication of effort?
    Secretary Norton. I'm sorry?
    Mr. Regula. I said, do you feel that your approach will not 
result in duplication of effort, and maybe diminish the quality 
in both places; that is, in the agency scientists, and in the 
USGS scientists?
    Secretary Norton. We are certainly going to try to avoid 
that sort of thing. I do want to make clear that with our 
funding for the Natural Resource Challenge, that is something a 
little bit different than what is being done within USGS. So it 
is not a direct movement of the responsibilities and the 
activities. We are looking at a slightly different mix.
    Mr. Regula. But you think you will be able to avoid 
duplicating services and activities?
    Secretary Norton. We will certainly try to avoid doing 
that. It is still something that we are examining at this 
point, to try to put in place the plans to move forward with 
having the right balance.
    Mr. Regula. Well, we will have some additional 
conversations on this. I hope that you will re-think, or at 
least re-look, at the approach and you will have an opportunity 
on Friday to see what is being done out there.
    I do think it is important that whatever we do is based on 
good science. We have a classic example in the Everglades where 
perhaps historically we did not use very good science in what 
was done there.
    Now, as I say, we are trying to put it back the way the 
Lord had it, originally. We discovered he was a pretty good 
scientist himself, in terms of drainage and the preservation of 
the ecosystem that makes up the Everglades.
    Thank you, Mr. Chairman, for letting me interrupt here. I 
will go back now to education.
    Mr. Skeen. We just wanted you to get a good taste of what 
this whole process is like. We are covering all the bases.
    Mr. Regula. Okay. [Laughter.]

                        CERRO GRANDE FIRE REPORT

    Mr. Skeen. The report on the Cerro Grande fire by the 
National Park Service Board of Inquiry was supposed to be 
released last week, Madam Secretary. When will the report be 
released to the public, and are you at liberty to discuss the 
findings?
    Secretary Norton. We are still making the final moves to 
release that report. Given the huge damage that was caused by 
that fire, I have seen that as something that really needs to 
be scrutinized. But I do anticipate that the Park Service will 
be releasing their report in the fairly near future.
    We are working very hard to be ready for this coming fire 
season. We have had almost daily briefings of all the efforts 
that are being made to hire fire fighters to ensure that we are 
making preparations. We are working with local communities.
    We have had to push hard to try to get some things moving, 
because it was not as much in process as I would have hoped 
when we got to the department. But we are trying to be sure 
that we are ready for this fire season.
    Mr. Skeen. Thank you.
    Mr. Dicks.
    Mr. Dicks. First of all, I wanted to mention that 
Congressman Obey, who is the Ranking Democrat on the committee, 
wanted to be here, but he was at the same hearing with Mr. 
Regula. He does have some questions for the record, Mr. 
Chairman, that I would like to present, without an objection.
    Mr. Skeen. Done.
    Mr. Dicks. Thank you.

                 HANFORD REACH OIL AND GAS EXPLORATION

    A few weeks ago, the committee became aware of a report 
conducted by USGS related to oil and gas exploration in our 
National Monument lands. I was concerned about the inclusion of 
the Hanford Reach National Monument in Washington State. This 
was a report that was released by Chairman Hansen.
    Can you tell me what the department's strategy is going to 
be about these energy issues, as it relates to these monuments, 
and particularly the Hanford Reach?
    Secretary Norton. We are at the very first stage of dealing 
with the monuments, and that is acquiring information, getting 
input from the members of Congress, from states and local 
officials about the monuments.
    One of the issues of information that was obtained was the 
mineral potential for the monuments. I do not recall the 
specifics for the Hanford Reach, but that is just one of many 
factors that will be rolled into examining how those monuments 
are managed in the future.
    I know in several of the monuments, there were specific 
statements made by President Clinton in the declarations that 
allowed existing oil and gas operations to continue.
    Mr. Dicks. So there have been no final decisions reached 
regarding the Hanford Reach or any of the monuments; you are 
still in a fact gathering mode?
    Secretary Norton. Absolutely.

                        LWCF STATE-SIDE FORMULA

    Mr. Dicks. There is one other thing that I just wanted to 
mention that was of concern. In the state-side Land and Water 
Conservation Program, you changed the formula. The bottom line 
is, if you are a remote area, you get more. But if you are in 
an urban area, if your state is urban, you get less.
    You know, we would like to work with you on this, because I 
think we are going to have a hard time explaining here in the 
House of Representatives why we are going to do that, 
especially when the needs, I believe, in some of the urban 
areas are really very great. The changes that you have made in 
the program, I think, are positive. We want to work with you on 
that.
    But I just worry that this change in formula may be 
difficult for us here in the House.
    Secretary Norton. Well, obviously, formulas are something 
that Congress will work with us on.
    The rationale for that was the shift in focus. It is away 
from just pure recreation activities which, of course, would be 
very highly correlated with how many people you have, to more 
of the habitat management focus, which is correlated to how 
much land you have. So we are trying to meld both of those 
together.

                            WILDLIFE GRANTS

    Mr. Dicks. I mentioned this to you yesterday, but I wanted 
to just bring it up here on the record. Last year, Congress 
appropriated a total of $100 million for wildlife grants under 
the Conservation Program, with $50 million clearly set aside 
for state formula grants, and $50 million, just as clearly set 
aside for competitive grants.
    In fact, the conference report signed by the House and 
Senate on the Competitive Grants Program was very specific. It 
reads in part, the managers expect the Fish and Wildlife 
Service to develop a cost-shared, competitively awarded, 
project-based program. The funds should not be distributed on a 
formula basis.
    I would just ask you, I hope that you and your agency 
intend to follow the law on this $50 million.
    Secretary Norton. Since I spoke with you yesterday, I have 
done some further homework on it, just to let you know exactly 
where that stands. The Fish and Wildlife Service published a 
notice in the Federal Register about what the process would be 
to distribute those grant monies on a competitive basis.
    The states objected to that process. We were also supposed 
to get approval from Congress or work with Congress on exactly 
what the criteria were. The Senate has also objected to that.
    Mr. Dicks. Which committee, the Appropriations Committee?
    Secretary Norton. The Appropriations Committee. We are 
still working with the states and with Congress on that 
formula, and hoping to have a formula within the next few 
weeks.
    Mr. Skeen. Mr. Hinchey?
    Mr. Hinchey. Thank you very much, Mr. Chairman.

                           NATIONAL MONUMENTS

    I would like to explore a little bit about the national 
monuments, also. As we know, the Clinton Administration 
designated a number of national monuments in the last year that 
they were in office. Those designations, of course, will 
continue to be in effect. It will fall to subsequent 
Administrations and subsequent Congresses to offer protection 
for those monuments.
    Do you have any plan, and I know it is early, andyou very 
well may not; but do you have any plan, to protect those monuments, or 
are you requesting funding in your budget for resources to offer 
protection for those several monuments?
    Secretary Norton.  Those monuments that were created in the 
last year amount to an area about the size of Connecticut. So 
we cannot just jump in and instantly have plans for dealing 
with that.
    That's why we have begun a process of trying to consult 
with the elected officials in the areas most affected. Then, 
depending on what we hear back on the individual monuments, we 
plan to launch into a process of getting a broad variety of 
public input on those things, probably for the most part 
leading into a management planning process, although it may 
come back to you for things like boundary adjustments or other 
aspects of the management process.
    Mr. Hinchey. We were informed that you sent a letter to 
certain elected officials, and I do not know exactly who they 
were.
    Secretary Norton. It was the Governors in whose states the 
monuments were located, members of Congress in whose districts 
the monuments are located, County Commissioners in those areas 
directly affected, and legislative leaders for the states in 
which the monuments were located. I think that is about the 
list.
    Mr. Hinchey. One of the issues that you raised with them 
was the issue of boundary adjustments.
    Secretary Norton. We included a whole laundry list of 
different things to consider: the boundary adjustments, the 
recreation potential for the areas, the types of uses they 
would see for the area in terms of visitor facilities and 
things like that. We asked for input on a wide variety of 
different things.
    Mr. Hinchey. You have no plans, as of this moment, for 
boundary adjustments; nor are you suggesting any adjustments in 
those boundaries?
    Secretary Norton. We do not have specific proposals. 
Nothing has really gotten to that stage. I think, though, there 
was some Congressional activity as to one of the areas. I think 
it was the Craters of the Moon area. We cannot adjust the 
boundaries. We would be working with the members of Congress on 
that.
    Mr. Hinchey. I would just ask you to consider that national 
monuments are, in fact, that, national monuments. They are of 
importance to people all across the country; not just to the 
Governors or the elected officials in whose states they may 
exist.
    For example, we have a national monument in New York, which 
is Governor's Island. Now this is a national monument that is 
important to people in New York, but it is important to people 
all across the country.
    I would not be comfortable at all with having New Yorkers 
only consulted with regard to actions taken with regard to 
Governor's Island National Monument, because Governor's Island 
National Monument is important to people in all of the 50 
states.
    So I would hope that in the future that you might keep that 
in mind, with regard to any proposed changes in any of these 
national monuments, that they are important to everyone, or a 
good many people all across the country, in every state.
    Secretary Norton. That is a good point. I do want to say 
that we do want to have input on a national basis on these, as 
well. The starting point is just with those people who see 
these areas every day.
    With Governor's Island as an example, I know from having 
just visited there last week or the week before, that there are 
a lot of other structures on that island. It is just a small 
part that has been designated a monument.
    The issue of whether that monument is expanded to include 
the whole island, whether the state of New York gets that 
monument, or whether that is sold off. All of those things are 
currently on the table. That is the kind of thing that we would 
be getting, as a first crack at it, the input of the local 
officials.
    Mr. Hinchey. With regard to Governor's Island National 
Monument, do you have any requests for funding to offer any 
protection or to do anything at that monument?
    Secretary Norton. Well, we do not have anything specific 
for that, at this point. I know that the overall status of the 
island is still very much in question, and that is part of a 
process that may clarify what kinds of things would be needed.
    Mr. Hinchey. I just want to emphasize, once again, with 
regard to gas or oil exploration or other activities that 
affect any of these other national monuments, that many of us 
have a real stake in those monuments, even though we don't live 
in those states, just as people have a stake in the Governor's 
Island National Monument, who maybe live on the West Coast.
    So I would just hope that you will keep that in mind and 
keep us in mind, if you are preparing or proposing any changes, 
particularly with regard to the boundaries.
    Secretary Norton. We certainly would need to work with you 
on that. There are some implications. For example, in many of 
the monuments, there is private land within the boundaries of 
those monuments. So you would need to be involved in the 
decisions.
    If we close off the uses of those lands, we may have some 
litigation from that, or some budgetary decisionsthat you all 
would need to be involved in.
    Mr. Hinchey.  I do not need to tell you this, of course, 
but you know that we are going to be watching this very 
closely.
    Mr. Skeen. Mr. Kolbe?
    Mr. Kolbe. Thank you very much again, Secretary Norton, for 
this chance to ask a couple more questions.
    I would just like to say in response to Mr. Hinchey's last 
couple of comments, that having one of these monuments that was 
created in my district, one that was created by your 
predecessor, we very much appreciate the approach that you have 
taken, through Mr. Hansen and the subcommittee, of asking us to 
have some comment and some input locally into the specific 
boundary issues.
    Because there are some issues that I think are easily 
resolved. I agree with Mr. Hinchey, these are national issues, 
but there are some unique local issues, with regard to the 
boundaries, that I think are important that we get some input. 
I appreciate that we have a meeting planned with your people 
and the community on that, and I hope we will have that 
opportunity to do that.

             western archeological and conservation center

    I want to ask a question about the Western Archeological 
and Conservation Center. This is a rather puzzling issue. 
Again, this did not take place on your watch. But in November 
of this last year, the Park Service awarded a contract to lease 
a new building for this facility, which is located in my 
district in Tucson, Arizona.
    The community seems to believe that it is needed. I do not 
carry any particular passion on the issue of whether or not a 
new building is needed. I have visited it. It does seem to me 
that they are jammed for space.
    But the real issue is the fact that they awarded this 
contract on November 24th, and two weeks later, on December 
7th, terminated the contract for the convenience of the Park 
Service. As I understand it, there is no such legal position, 
as terminating for convenience.
    The contractors have taken the position that the Park 
Service will be held liable for the cost of this. As I 
understand it now, the Park Service has agreed that this is 
going to be the case.
    The cost of that could be as much, as I understand or at 
least the contractors and the developers are going to claim, 
$26 million.
    Now, undoubtedly, this will be disputed, and it will be 
adjudicated, whether it is through a settlement mechanism or, 
ultimately, in court, which will have some legal fees and the 
whole thing. But even if it is much less than that, even, let's 
say, half of that, or $10 million, that's not an unsubstantial 
amount of money that we are talking about here.
    I am wondering about the management, or what I would call 
the serious mismanagement, that this demonstrates within the 
Park Service. I support fiscally responsible activities, but 
backing out of this kind of a contract does not strike me as 
being very fiscally responsible.
    So I am wondering whether there has been any analysis as to 
whether backing out on something that may end up costing $26 
million in liquidated damages is really just flushing this down 
the hole, instead of getting a building that we could have in 
place of it.
    The second part of that question is, I would like to see 
the financial analysis that was done by the Park Service that 
supports this move of canceling this, that is going to result 
in these costs.
    Secretary Norton. Congressman, I am aware of this 
situation. It certainly is a cause of concern that apparently 
someone entered into this lease in the first place, without 
really planning where the $60 million or so was going to come 
from, to follow-through on this project.
    It does appear to be headed toward litigation, so I would 
like to be cautious about what we say on this matter. But it is 
something that has gotten onto my radar screen. It is an 
example of the kinds of management problems that cause me 
concern, and I want to try to focus on it. We will look at 
where we go from here.
    John Trezise was in the Solicitor's Office previously. I do 
not know if he wants to add anything.
    Mr. Kolbe. I take it we are not going to add anything to 
the specifics of it. [Laughter.]
    Secretary Norton. But we will get back to you with some 
more specifics.
    Mr. Kolbe. Yes, I would be very interested in knowing. As I 
said, canceling a contract at this point, you have got to weigh 
the cost of that against proceeding with the building and going 
ahead with it, and whether or not you get more value, even if 
you had wished you had not entered into it, whether you would 
not be getting more value from proceeding from where you are. 
So I would like to know some of the analysis that is going into 
this, and how you intend to proceed.
    Also, I might add, this going to be a key place in this 
giant new nouveau-riche project that is the whole rebuilding 
and reconstruction and design of the downtown area of Tucson. 
This was going to be a key element of that. So in that sense, 
it has caused a lot of heartburn for the community leaders. But 
the Park Service entered into the contract, and then promptly 
withdrew from it.

                land acquisition in southeastern arizona

    Since I think we are not going to get any more specific 
answers on that one, let me just deal with one other issue 
here. That is the issue of land acquisition in 
southeasternArizona.
    Secretary Norton. Let me say I appreciate the opportunity 
to explain why we are enthusiastic about this new landowner 
incentive program.
    I think you can protect a lot more acreage of habitat 
through this sort of approach than through a land acquisition 
approach. If we look at what has already been accomplished in 
Texas, they have been able, for example, to work with 
landowners who protected the area of the Swift Fox which is an 
at-risk species.
    Mr. Kolbe. I have one other issue and that is the issue of 
environmental degradation along the border.

           Environmental Degradation from Illegal Immigration

    We put in some language last year in the committee report 
instructing the Secretary of Interior to work with the 
Immigration Service and the EPA in southeastern Arizona to 
develop a plan to look at the degradation that has been caused 
and the ways in which we can mitigate this.
    The number of illegal immigrants coming through Arizona in 
the past year and a half has been more than the rest of the 
border combined. There has been an enormous influx and the 
damage has been staggering, the amount of trash and bottles 
that are dropped everywhere, cut fences, stock tanks and 
everything else that has been destroyed.
    We recently had a meeting in Arizona with some of the 
people who seem to think the report language doesn't mean 
anything. They say no, we want to do a national strategy. That 
is fine if the national strategy is needed but our report 
language was very specific to start with the southwest border 
in Arizona and see how it can be done there and if you want to 
go from there to a national strategy, great, but I would like 
to caution you that it was very explicit on that. They have 
said they want clarification of the report language. No 
clarification is needed. It was very specific about doing it in 
southeastern Arizona. We would like them to follow through with 
that and not try to just ignore the intent of the committee.
    Secretary Norton. My chief of staff recently attended a 
conference dealing with the border issues, and we realize it is 
a serious concern. The drug trafficking there is a huge 
problem. We are seeing a lot of illegal traffic, both drug and 
unauthorized aliens along our borders, so we want to ensure we 
are handling that appropriately.
    It is my understanding there was an MOU that was signed for 
the southwest portion of the border on March 20. We are working 
on some MOUs as to the remainder of the border. So we will 
consult and get back to you on exactly what is being done and 
where there might be some inconsistencies.
    Mr. Kolbe. I would appreciate that very much.
    Mr. Chairman, I have one other question I will submit for 
the record.
    Thank you very much.
    Mr. Skeen. Mr. Wamp.

                          Remarks of Mr. Wamp

    Mr. Wamp. Just a short statement and a couple of questions.
    Energy and the environment have always been linked together 
and as they return to the front page of American publications 
above the fold, I think it is important to stop, as you come to 
this subcommittee for the first time, and recognize that if 
Teddy Roosevelt could come back in the flesh for a minute, he 
would find Ralph Regula and people like Norm Dicks and wrap his 
arms around them and say, ``Well done,'' because what we have 
done in the last six and a half years at this subcommittee has 
been balanced, fair, bipartisan and has served our country at 
the highest level. I really believe that.
    We have traveled together, we have worked together. We have 
had disagreements. I don't think two people disagreed more or 
fought more in the last several years than the previous 
Secretary, Mr. Babbitt, and me over different issues, 
personalities and everything else.
    So you are coming into a little controversy. Bruce seemed 
to carry it around with him everywhere he went, so just get 
used to it. It comes with the turf, but we will do a lot of 
good work together. I hope over time, we can look back, as we 
do with Secretary Babbitt, and say great things happened 
because of where we agreed and where we came together. I am 
encouraged.
    I was with the President yesterday for the National 
Environmental Awards at the White House for the youth and he 
talked about preservation and conservation and some other 
environmental issues, not just the EPA and arsenic which seems 
to get headlines.
    Thank you for the backlog issue. It is something this 
subcommittee has been bringing up every year through the Park 
Service, $14 billion of backlog, and we need to address it. 
This Administration is addressing that much more adequately and 
I am sure that we are going to work together on that.
    The Land and Water Conservation Fund surprised a lot of 
people. I spoke this past Saturday to the southeastern meeting 
of the Trust for Public Lands and they are very encouraged. It 
is a bipartisan group, doing good work but they are very 
encouraged by exactly what this leads to with LWCF and the 
President's new initiatives.
    Yesterday, the President talked a lot about technology and 
the ability to do things with exploration and new energy 
sources in this country that we didn't used to be able to do 
because the technology didn't exist and still be 
environmentally friendly. I just want to make a point for the 
USGS because we have to maintain technology investment through 
USGS and adequate funding for USGS in the future. That is kind 
of a little commentary.
    I want to ask a question. I am sorry I was late but I amon 
Energy and Water too and I will see you there a little later, so I am 
bouncing back and forth today.

                            ANWR LEASE SALES

    I know we discussed ANWR. I don't think you specifically 
addressed the royalties and I know that is not even really on 
the table yet as to what if the new National Energy Policy 
mandates new exploration and ANWR is on the table, and it is 
necessary, based on a National Energy Policy to do it, is there 
a way to tie the royalties in with programs such as renewables 
or energy conservation which clearly is a counterweight and a 
balance so that you can say, as LWCF--one of the problems with 
LWCF is it adds to the inventory, adds to the maintenance, adds 
to the ongoing cost whereas this is an immediate annual trade, 
this for that and a way to balance it out.
    I would raise that question and say, is the Administration 
willing to work with us on those kinds of innovative approaches 
to exploration?
    Secretary Norton. Congressman, we liked your idea so well, 
we already included it in the budget.
    Mr. Wamp. Explain that. That is what I heard.
    Secretary Norton. The budget proposes that bonuses from any 
lease sales in ANWR would go to the Department of Energy for 
their renewables research and for other ways of trying to 
minimize the amount of energy that we need. So it would go to 
try to reduce the demand at the same time we are increasing the 
supply. So we are trying to find that right balance for the 
long term so that this country is moving toward more renewable 
sources of energy.
    Mr. Wamp. I look forward, as the co-chairman of the House 
Renewal Energy and Energy Efficiency Caucus, to working with my 
colleague, Mark Udall, and trying to put some definition to 
that idea. I understood it was in the budget, I actually 
thought it was my idea until I realized it was already in 
there.
    Nonetheless, we will put some meat to that idea as we 
pursue this, whether it survives or not through this process.

                             MOCCASIN BEND

    One other thing. I would like to know the Administration's 
general view on acquisitions and additions because in Tennessee 
we have had pending a proposal to add the Moccasin Bend site in 
downtown Chattanooga to the National Park Service. It first 
came up and was literally in statutory form 51 years ago, but 
Governor Frank Clement decided not to signoff on it as the 
Governor of Tennessee at that time.
    Moccasin Bend has now experienced some use that is not 
compatible with the historical elements there. I just want to 
put this on your radar screen because I have introduced 
legislation to add about 1,000 acres to the National Park 
Service. I don't know if it is a zero net growth policy that 
you have or if there are exceptions, but in this case the human 
history dates to 1600 B.C., the Trail of Tears crossed here, 
Hernando De Soto camped here, there are still Native American 
remains throughout this property, the Civil War was fought 
there and the Chickamaw Chattanooga National Military Park is 
next door. So it is really not that difficult.
    I think I have written a good bill and I hope you all will 
be responsive to it so that we can find a way to work out this.
    Secretary Norton. Congressman, we don't have any sort of 
fixed policy on no new parks, no new additions to the system. 
What we have is great management concerns about how we take 
care of what we have as long as we keep extending ourselves. So 
we would like to focus on taking care of what is already a part 
of the system.
    We also view the Land and Water Conservation funding on the 
state side as one of the ways of dealing with this, and would 
encourage the state in working with you to see if that might be 
one of the possibilities for dealing with this. This would 
involve the states in deciding to acquire one of its designated 
areas using the funding the President's budget would provide.
    Mr. Wamp. Thank you.
    Mr. Skeen. Mr. Peterson.
    Mr. Peterson. Good morning, Madam Secretary. Look forward 
to working with you. Tough job, but you are up to it, I think.
    Secretary Norton. It is a fun job.
    Mr. Peterson. I think we are ending the era of the phase 
out of coal. I hope that is where we are.

                  ABANDONED MINE LAND BUDGET REDUCTION

    Your budget request calls for a large cut in funding to 
repair coal mine lands. That is one area that was very 
disappointing to me because I come from Pennsylvania, a state 
where the states matched this and were prepared to continue a 
very aggressive effort at cleaning up.
    In my view, we need to, for the time being, have a stronger 
reliance on clean coal technology but at the same time, I 
personally think it is a mistake to not continue the aggressive 
cleanup because it has worked so successfully. It is attracting 
state and local dollars and I guess I would be interested in 
your thoughts on why we cut that.
    Secretary Norton. Part of the cut in that budget is not 
really directly affecting what happens on the ground, because 
$97 million of that funding was going into the Combined 
Benefits Fund. The interest off the funds in the Abandoned Mine 
Reclamation Fund were designated for that. That is something in 
the future that ought to be handled by working out something on 
the authorizing side to provide a more secure source of funding 
than having that come out of the Abandoned Mine Reclamation 
Fund. That is a big part of it.
    We also need to look at it from the perspective of whatthe 
effect is, what our plans are. The program for the 2001 fiscal year 
would address 7,200 to 8,400 acres and the 2002 budget would address 
6,000 to 7,000 acres. So we are still in the same ballpark on the 
amount of land that would be reclaimed. It is an important program. We 
hope to work further to be sure we are spending those monies as 
effectively as possible.
    We are not cutting any of the money and are in fact 
increasing the amount of money that is available for the 
regulatory side of the surface mining program.
    Mr. Peterson. My interest was the cleanup, but I would like 
to work with your office. Pennsylvania feels like it is going 
to have a huge hit and they have the money in the budget 
prepared to continue this cleanup effort. Maybe we can resolve 
that, if what you have told me is accurate.

                              Natural Gas

    As I said earlier, we are ending an era of phaseout of coal 
but we still have a moratorium on nuclear and hydro and a 
couple of weeks ago we were told there is an inability to 
relicense those and it's problematic. We are now down to about 
60 percent of oil from foreign countries and growth in 
renewables has been slower than we had hoped. The growth in 
renewable energy we must keep pushing, but that wagon isn't 
moving very fast. It has put a huge load on natural gas.
    In my view, and I come from a rural area, if we have the 
kind of spikes next winter on top of what we had this year, and 
it appears that is very likely, the charts of gas coming into 
the system are not as great as use. As we hook up these 
electric power plants that are going to suck gas out of our 
system faster than we can drill wells, I think.
    What is the view of the Department of Interior of trying to 
help us resolve that problem, helping with the gas bubble? I 
saw a briefing a couple of years ago that it was an eight year 
bubble that we were going to use all this gas and we started 
down this road of all power generation coming from gas without, 
I think, preparing for it. We are going to chase seniors out of 
their homes, we are going to put small companies who use a lot 
of fuel out of business who don't have an option to use 
anything but gas. What do you see as your role in helping in 
that area?
    Secretary Norton. You have identified a problem that 
indicates the deficiencies in what we have had as a planning 
process in the past. We have put ourselves on a course where 
the National Petroleum Council has projected that our use of 
natural gas would increase by almost half as much by the year 
2020. We have the problem of where we find those supplies. 
There is nothing that was a part of any Federal planning 
process that identified where the resources were going to come 
from in order to meet the course we had put ourselves or a way 
to deal with air quality issues.
    That is why the Administration is working on a 
comprehensive energy task force approach to look at these 
issues across the board. So at this point we are still in the 
process of working feverishly to come up with a good, solid set 
of recommendations to present to the American public as to the 
courses of action we ought to pursue.
    Coal is certainly a part of any long term energy strategy 
for this country and trying to ensure that we have an approach 
that is going to satisfy both air quality concerns and use the 
available resources is something we are trying to deal with as 
part of that report.
    Mr. Peterson. I look forward to working with you because I 
come from a State where the first oil well in Titusville was 
drilled, also a lot of gas and coal, so we are an energy State 
and we want to be a part of the solution but it won't be easy.
    Secretary Norton. You are also right in identifying it is a 
serious problem.
    Mr. Peterson. It is bigger than people realize in my view.

               Fish and Wildlife Service Land Acquisition

    Last year, the General Accounting Office criticized the 
Fish and Wildlife Service for their land acquisition policies. 
We didn't get very good answers from them when they were here. 
They are the only agency that can buy land without approval of 
Congress and it seemed every dollar they could put in that pot, 
they were, buying land everywhere with no plan of how to 
maintain it or, no plan of having the funds necessary to 
develop it, so that it was usable to the public.
    I was interested in your view of trying to rein them in. 
Should any agency have the ability to purchase land without 
anyones approval?
    Secretary Norton. I do know the Fish and Wildlife Service 
often purchases small tracts of land to add to existing areas. 
Some of them are purchases that you perhaps would not want to 
have to deal with, a few acres at a time.
    It is cause for concern overall. I am looking at that 
process now from a management perspective to gain a better 
understanding of what our processes are. I do know we have the 
Migratory Bird Conservation Commission that examines many of 
the purchases that are made. So there is a structure for 
approval, and there are several members of Congress who are 
members of that Commission who are personally involved in that 
approval.
    We will look forward to examining that process and working 
with you.
    Mr. Dicks. Would the gentleman yield?
    Mr. Peterson. Certainly.
    Mr. Dicks. The gentleman realizes that Congress gave the 
Fish and Wildlife Service the authority to do precisely what it 
is doing.
    Mr. Peterson. I agree with that but we talked about it last 
year.
    Mr. Dicks. I know it is a difficulty, but I just want to 
make sure that it isn't like this is a renegade agency that 
isn't operating under the authority we gave them. We have the 
power to take away that authority as well.
    Mr. Peterson. They blatantly started as many refuges as 
they could possibly start with, small tracts of land.
    Mr. Dicks. I disagree with that.
    Mr. Peterson. The course of action is not one that is 
prudent, and I think we are not leaving those who follow us the 
ability to maintain these and manage them. If we are going to 
solve that, I would like to have the Department of Interior 
work with us. If we allowed every agency to have that kind of 
power, we would be in trouble, in my view.
    Secretary Norton. I think we have a situation, whether we 
are talking about creation of new park units through the 
congressional process or Fish and Wildlife Service creation of 
new areas, where we need to bear in mind the long term 
management of these areas before we start acquiring them.
    Mr. Peterson. No Federal agency has adequately dealt with 
maintenance in my view.

                            Indian Diabetes

    Mr. Skeen. There is one thing not mentioned and that is 
diabetes amongst the Indian tribes and something has to be 
done. I don't know how to tell what we need to do, but I am 
sure you can find a way.
    Secretary Norton. We certainly do want to coordinate with 
all of the Indian programs and ensure that this Administration 
overall is providing the kind of services we should to the 
tribes. That is something we will look forward to being 
involved with.
    Mr. Peterson. Would the Chairman yield?
    Mr. Skeen. Yes.
    Mr. Peterson. Two weeks ago, the HHS Subcommittee went to 
CDC and the very first slide they showed us in Atlanta was the 
obesity of America. In 1990, there were four States that were 
dark blue, a certain percentage of obesity, and today, a decade 
later, there are 46 States. They showed a map right after that 
on diabetes, yellow diabetes was mild, orange was prominent and 
red was in trouble. All the blue States were red, so the 
problem in this country is obesity first and diabetes second. 
So if you don't deal with obesity, you are going to have a 
diabetes problem that is exploding in our health care cost 
system but it is all about a fat America, in my view.
    Mr. Skeen. Mr. Kingston.

                      Endangered Species Listings

    Mr. Kingston. I wanted to talk a little about ESA. There 
are a lot of court mandated habitats right now. Do you know how 
many are court mandated versus legislative or executive order 
agencies designated? Is there a division?
    Secretary Norton. We will search to see if we can find that 
in our papers right now. At this point our process is one that 
is really driven by the court dockets.
    As of April 13, 2001, the listing workload coming from 
litigation was 83 cases that have been resolved by court order 
or settlement; there are 77 active lawsuits covering over 400 
species and there are another 95 notices of intent to sue that 
involve over 630 species. So our listing workload at this point 
is basically entirely driven by court order.
    For those who are working as biologists to try to deal with 
this, it is very frustrating because we are not prioritizing 
the species on the basis of biological need, but on the basis 
of court orders and court docket deadlines. So I think there is 
a more rational system that can be adopted and that is what we 
have proposed.
    Mr. Kingston. What is it you have proposed to deal with 
this?
    Secretary Norton. Essentially continuing what the prior 
Administration did and what you all established, which is a 
statutory cap on the funding for the listing process, but we 
don't want to cut off listing actions entirely, so we have 
proposed increasing the amount of money in that listing 
program. The concern is the listing activity could crowd out 
the other activities that are really the ones that recover 
species. So to put the money where it biologically is needed as 
opposed to the legal process, we have proposed ensuring that we 
have an adequate supply of money there but that it is not 
something that grows exponentially.
    We would also put in place a priority list so that the 
money that is spent out of that fund is now based on an 
established list, looking at the needs of the species. We will 
put the money on the species that have the most need instead of 
the species that have the most lawyers.
    Mr. Kingston. Can you send the committee a breakdown in 
terms of your ESA programs, how much of it is for the court 
mandated habitat designation, I know it is a tremendous amount 
of the total program, and how much goes to lawsuits.
    Secretary Norton. Our total amount for the actual process 
is $6 million; for the 2002 fiscal year it would be $8.47 
million.
    Mr. Kingston. How much goes to lawsuits?
    Secretary Norton. In our current year's budget, basically 
all of that is going to activities that are required by 
lawsuits. Let me ask Ann Klee to supplement.
    Ms. Klee. For fiscal year 2001, almost all of the 
Department's available funding in critical habitat dollars have 
already been committed to complying with court-ordered 
deadlines. There is a certain amount reserved for the DC work 
that goes into preparing the critical habitat designations but 
almost all, with very little exception, and we probably won't 
make it through the year without dedicatingvirtually all of the 
listing budget to meeting court ordered deadlines.
    The concern is that in the process of settling ongoing 
lawsuits, we have also already committed a significant portion 
of the funding for 2002. If funding for the listing in critical 
habitat designation is not increased for next year, we are now 
at the point where we will probably not be able to do anything 
but comply with court ordered listings--critical habitat 
designations for 2002 as well. We are settling cases into 2003 
and 2004.
    Mr. Kingston. We are doing a fine job of preserving 
endangered lawyer species it sounds like.
    How long does it take a recovered species to be delisted?
    Secretary Norton. It is almost to the point where you 
cannot say what the time period would be. One of the things I 
was pleased we were able to do since I took office was to 
delist the Aleutian Canada Goose. That is only the tenth 
species in the history of the Endangered Species Act that has 
been delisted. That was the result of a program that began 
before the Endangered Species Act was passed. Well over 30 
years ago in the 1960s the program for trying to recover the 
Aleutian Canada Goose began.
    Mr. Kingston. If we are not recovering species, then 
something is not working. If we are able to do all this great 
stuff with new technology and new science, it would appear to 
me we should put more resources in species recovery and try to 
put less resources in litigation, and that would be in the 
interest of the species.
    Secretary Norton. I agree.
    Mr. Kingston. It might be interesting if under your tenure 
you come up with some suggestions to move us in that direction. 
It just makes common sense. How many species have we lost, do 
you know?
    Secretary Norton. I believe there have been seven or eight 
species that have been taken off the list as having been found 
to be totally extinct.
    Mr. Kingston. Has anyone ever said here is what went wrong 
in our efforts?
    Secretary Norton. I don't know the answer to that question, 
whether those species taken off the list had actually ever had 
any recovery programs put in place for them.
    Mr. Kingston. It might be interesting if you could send me 
something on that, let me know philosophically where you guys 
are heading on this, what we are doing right and what we are 
doing wrong.

                    AMPHIBIAN DISAPPEARANCE RESEARCH

    The questions about USGS being the lead science agency, one 
of the things this committee has been funding is research on 
the worldwide amphibian disappearance. That is the lead agency 
working with other Department of Interior agencies and the 
Department of Agriculture. I think we have put in like $3 to $4 
million each year on that. We feel amphibians living in water 
and on land can be an indicator of what is going on out there. 
The USGS is doing a very good job as the lead agency on it but 
we are still in the beginning stages of that.
    Secretary Norton. That program does involve funding for 
several different agencies. The USGS amount that is in our 
budget would fund this at the year 2000 levels and the same is 
true across the board in the Department. It would essentially 
remain at the year 2000 levels which would be a decrease from 
the 2001 levels.
    Mr. Kingston. It moves a little bit toward the endangered 
species issues because it is more proactive than wait until 
something is endangered, but we do know the populations are 
decreasing but we don't know why. That is why I bring that up.

                  PRIVATE SECTOR CONSERVATION EFFORTS

    One final question, we have a command and control mentality 
in Washington, D.C. that is almost as if to certain groups, 
government is God and government in its role as God can be the 
only protector of habitat and species. These groups fail to 
recognize the private sector and private landowners in their 
efforts, and yet so many of our large tracts of land are here 
today because they have been owned by families for years and 
years and preserved and protected. Not all these people want to 
sell to the government.
    What I really resent in Washington, D.C. is this mentality 
that they are not going to be able to do it, we must have the 
Department of Interior buy it. It is politically easy and it is 
a total cop out for us to buy things. It is popular as hell, 
but at some point, with 32 percent of the land mass in America 
being owned by the Government, which does not include military 
bases and interstate highway easements, State or city owned 
land, at some point, we have to say, let's run it up to 50 
percent or let's reexamine this. Maybe it should only be 25 
percent.
    I am from Savannah, Georgia which has a huge historic 
heritage. One reason we have been able to preserve that 
historic heritage is we have deputized the private sector 
through tax credits, zoning, convenience and all kinds of 
locally driven things but if you come to Savannah, you will see 
more history in a square mile than probably any other town in 
the country.
    Yet when it comes to environmental policy, we ignore this 
same private sector. We don't seem to want to deputize them. 
What I would love to see from your department and your vision 
is more balance, saying let's deputize the private sector, 
let's get them to be our allies, work through tax credits, 
conservation easements or whatever way possible and make it so 
that the farmer in south Georgia can brag when he has 
RedCockaded woodpeckers and Indigo snakes rather than trying to keep 
that quiet before anybody finds out because his land becomes devalued.
    Secretary Norton. I think you will find that approach is 
very consistent with the President's budget, with our landowner 
incentive programs that are designed to encourage that kind of 
habitat conservation approach.
    Although not part of your issues here, the President has a 
proposal that would give tax relief for people who sell their 
land for conservation purposes. Across the board we are looking 
at a number of different kinds of things to take all of that 
into account.
    I think there is increasing realization within 
environmental groups as well that working with landowners is 
something that is really constructive and best for the species 
in the long run.
    Mr. Skeen. Mr. Dicks.

                            WILDLIFE GRANTS

    Mr. Dicks. I want to go back to the wildlife grants again. 
Have you received anything in writing from the Senate on this 
issue on the competitive grants? We have talked to the 
committee there and they say they favored the formula grants on 
the first $50 million and that money has gone out. It is our 
impression they have nothing in writing that said you can't go 
ahead with the competitive grants. In that case, I think we 
should go ahead, it is clearly the intent of Congress that we 
do that.
    Mr. Trezise. We did not receive a written response from the 
Senate when we sent up the procedures developed by the Fish and 
Wildlife Service. We were asked informally by the Senate to 
work with the States to consider and address the objections the 
states had to some aspects of the procedures. The package we 
will be bringing to the subcommittees shortly will address 
that.
    Mr. Dicks. So we don't have a formal objection, an informal 
objection and how soon will we see these regulations?
    Mr. Trezise. Within the next couple of weeks, I believe.

                         ENDANGERED SPECIES ACT

    Mr. Dicks. On the Endangered Species Act, our State has 
already had as big a hit on this as any in the northwest with 
the Spotted Owl and the Marbled Murrelet and listings for 
salmon. A lot of people think the way to stop all this is to 
cut off the funding for listings and critical habitat and for 
staff.
    I want to tell you that is the worst mistake you can make. 
For the Fish and Wildlife Service, we have done more habitat 
conservation plans probably than any State in the country. That 
is working with the private sector and we have done those, but 
we have to have staff from the Fish and Wildlife Service, from 
the National Marine Fisheries Service and agencies who can come 
to these meetings.
    I worry in trying to stop listings and this and that, we 
wind up being counterproductive. That is why these people have 
gone to court because of the agencies failure to deal with 
these problems because they don't have the personnel to deal 
with it. I think you have to focus on that. If we do focus on 
that and get enough staff, then we can do these habitat 
conservation plans, give certainty to the private sector, and 
move down the road.
    Secretary Norton. Your point is a good one. The habitat 
conservation plans and that part of the process is the kind of 
thing we are trying to protect and make sure we have enough 
resources for. The critical habitat process we are talking 
about in terms of trying to restrict is the critical habitat 
designation that takes place at the beginning of the process 
before you go through studying the species and doing the 
recovery program.
    I think there is consensus that it would make more sense to 
focus on designating the habitat once you have all the 
understanding of what needs to be done.
    Mr. Dicks. We agree. One suggestion has been made about 
separating the funding for listings and critical habitat. That 
may be one way to solve this problem. We may want to talk to 
you about that.
    Mr. Skeen. Mr. Hinchey.
    Mr. Hinchey. I have been fascinated by this discussion. I 
think it is a very important one with regard to the Endangered 
Species Act, the Fish and Wildlife Service, and the acquisition 
of land. All of these issues obviously are closely related.

                           HABITAT PROTECTION

    One of the reasons you see a decline in species, 
particularly amphibians, is the decline in wetlands. We are 
losing, in spite of the Endangered Species Act, in spite of the 
activities of the Fish and Wildlife Service, in spite of the 
Government of this country and all 50 States, losing probably 
in excess of 100,000 acres of wetlands a year across the 
country to development. That is why we are losing amphibians 
and other endangered species.
    The only way we are going to protect endangered species, in 
addition to listing them, is to protect the habitat that is 
required for them to sustain themselves. That is why the small 
purchases by the Fish and Wildlife Service are very important 
and woefully inadequate and ought to be increased. If there is 
any one from the Fish and Wildlife Service listening, I would 
encourage them to do so.
    Mr. Kingston. Can you yield?
    Mr. Hinchey. Yes.
    Mr. Kingston. The issue goes beyond losing habitat, there 
are areas like Kings Canyon where there is no habitat 
encroachment and species are disappearing and in Minnesota, 
frogs have been found deformed and there is no habitat issues.
    Mr. Hinchey. This is a very complicated issue and it canbe 
resolved only by looking at it completely and in all of its 
manifestations.

                         ENDANGERED SPECIES ACT

    With regard to the Endangered Species Act, I am concerned 
about one of the issues the Bush Administration has put forward 
with regard to restricting the ability of people to bring legal 
action in order to have species listed. We know legal action is 
the way species have become listed. A study recently done in 
California showed over a nine year period, 92 percent of the 
species listed came about as a result of legal action by 
citizens or jointly by environmental organizations.
    Is it true you are proposing a rider which would restrict 
the ability of people to bring legal action to protect 
endangered species?
    Secretary Norton. Let me provide some context for that. The 
answer is we are providing something that would try to move us 
away from litigation being the key way in which things happen.
    Mr. Hinchey. You are proposing something?
    Secretary Norton. Yes, we do have a proposed provision for 
that. The reason we have had so much litigation in part has 
been there are very short deadlines within the Endangered 
Species Act, I think 120 days, for a decision to list. The Fish 
and Wildlife Service, if it misses that, then someone is there 
to put a court order in place and say it has to be done by 
court order. So there are a lot of things that would have gone 
ahead and would already be accomplished in the absence of a 
court order. It is just because we have missed the deadlines 
that the court orders have gotten there quicker.
    What we are trying to do is put in place a more rational 
process. This is something we are trying to work out with the 
people who understand these issues from doing them day to day 
within the Service, and we would like to work with you all on 
some sort of a proposal to ensure we are doing things, not 
neglecting the species that need some attention.
    Mr. Hinchey. I don't think we should do that obviously but 
I think we should ensure all species get the attention they 
deserve. I would suggest one solution to this problem would be 
something the previous Administration didn't do, and that is to 
request more funds for this program so that you have the 
personnel and the ability to carry out the program as it was 
enacted by Congress.
    Secretary Norton. What I would propose is having our 
emphasis be on the actual recovery of the species.
    Mr. Hinchey. I am concerned you are not going to be able to 
get there because you are not going to have anyone proposing 
species to be preserved. The Fish and Wildlife Service isn't 
going to do it because they don't have the resources, and they 
are too timid. If you restrict the ability of the general 
public, of the taxpayer, and the general citizen, to come 
forward and try to do something about threats to species, while 
the Government is failing in its responsibilities in this 
regard under the law, then I think you are doing a disservice. 
That is my editorial comment.

                        NPS MAINTENANCE BACKLOG

    I would like to ask another question with regard to the 
maintenance backlog in the National Park system. We applaud 
your efforts to try to deal with that backlog. This is 
something this chairman and the previous chairman harped on 
incessantly and tried desperately to do something about. I hope 
you are successful but I am concerned about your ability to be 
successful.
    The President in the campaign identified the need at $3.75 
billion backlog.
    Secretary Norton. The figure that has been used is $4.9 
billion.
    Mr.  Hinchey. My number is outdated. He has proposed to 
deal with that over a five-year period. You are requesting $440 
million in this budget?
    Secretary Norton. That is correct.
    Mr. Hinchey. That is not going to over a five year period, 
if that number is consistent, get us anywhere near close to 
dealing with half of the problem. I would hope you might be a 
bit more ambitious.
    Secretary Norton. Of that $4.9 billion, there are two 
different parts of the backlog that need to be addressed. One 
aspect of it is dealt with by the $440 million. The other 
portion of it is the roads backlog and of that $4.9 billion, 
$2.7 billion is roads. That will come up when the TEA-21 
process is reauthorized next year.
    Mr. Hinchey. The $440 million is designed specifically to 
deal with what aspect of the problem?
    Secretary Norton. Anything other than roads.
    Mr. Hinchey. That amounts to what?
    Secretary Norton. $2.2 billion.
    Mr. Hinchey. So the $440 million gets you on track. I think 
that is marvelous.
    As I understand it, the way you get the $440 million, one 
of the ways you use is the employment of user fees, $100 
million, is that correct?
    Secretary Norton. Yes, that is correct, from the recreation 
fee demonstration program.
    Mr. Hinchey. User fees are already being charged. That 
money is currently going into backlog. Are we talking about 
$340 million in new money or $440 million in new money?
    Mr. Trezise. We are talking about the current recreation 
fee funding. Currently, of the money the Park Service collects 
for recreation fees, about $50 million goes to backlog 
maintenance, the rest goes to other very important needs in the 
park system. We have proposed in 2002 to increase thebacklog 
maintenance allocation from fees to about $80 million. This does not 
involve increasing the fee charges themselves. The remainder of the 
$100 million is funding collected from Park concessionaires under the 
new concessions legislation.
    Mr. Hinchey. That is $20 million. Where is the $30 million 
going to come from? Whose hide is that going to come out of?
    Mr. Trezise. A matter of setting priorities within the 
parks as to which projects they will do first. We are going to 
try to take care of what we have by increasing the proportion 
of the current fees that are devoted to backlog maintenance.
    Mr. Hinchey. We are talking about $340 million of new 
money?
    Mr. Trezise. The total program is $340 million in 
appropriated funds and the $100 million in fees.

                     courts and endangered species

    Mr. Peterson. When you look at the record of massive use of 
the courts for the endangered species, it is a failure. It has 
cost this country billions and gotten almost nowhere. I applaud 
you for trying to figure out some way to negotiate these things 
and resolve these issues. The court system never fixes anything 
whether it is medical malpractice. The court system should be 
the last resort.

                       payments in lieu of taxes

    We are about one-third ownership of the country. The last 
thing I was able to accomplish in Pennsylvania is we doubled a 
sixty cents an acre payment to $1.20, gave a lot of relief to 
school districts and local governments because when we take 
massive amounts of land out of local tax domain, we know this 
is not equally spread around the country. I think it is 
atrocious that we had $138 million last year for PILT. We have 
about $1 billion of inventory land, 13 cents an acre on 
average.
    If the Federal Government wants to own half of America, it 
needs to pay something in lieu of taxes and it is not fair to 
local government, schools, townships, or counties to have to 
run everything there and we walk away from our tax burdens. 
This is not something you can solve in this year's budget, but 
I want you to know my goal is some fair PILT payment for the 
hundreds, if not billions, of acres under federal domain, in 
just a fairness thing for rural America.
    Secretary Norton. As someone who comes from a state that 
has a lot of public lands, I understand that issue. This 
current budget maintains historic funding levels in that we are 
actually above the level for any year except for last year's 
payment. We would like to continue working toward full funding 
but with the overall budget constraints necessary for this 
year, that was not possible.
    Mr. Peterson. Those who want us to own the land would get a 
lot less grief from rural America if they got something in a 
fair payment in lieu of taxes. That is a message I hope the 
land purchasers are listening to.

                     national wildlife refuge fund

    Mr. Skeen. For the past few years, the committee has urged 
the Fish and Wildlife Service to make more adequate payments to 
counties from the National Wildlife Refuge Fund, especially as 
the Service continues to acquire more and more land. How is 
this concern addressed in the fiscal year 2002 budget request?
    Mr. Trezise. I believe it is funded at the enacted level.
    Mr. Skeen. It is lunchtime. I don't know whether that is an 
excuse or not.
    Secretary Norton. I think lunchtime is a good boundary for 
our territory.
    Mr. Skeen. You have been forthcoming with the information 
today and we appreciate your office and the way you are 
handling it. We thank all of you. Thank you for the time you 
have given us today.
    [Questions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T2609A.015
    
    [GRAPHIC] [TIFF OMITTED] T2609A.016
    
    [GRAPHIC] [TIFF OMITTED] T2609A.017
    
    [GRAPHIC] [TIFF OMITTED] T2609A.018
    
    [GRAPHIC] [TIFF OMITTED] T2609A.019
    
    [GRAPHIC] [TIFF OMITTED] T2609A.020
    
    [GRAPHIC] [TIFF OMITTED] T2609A.021
    
    [GRAPHIC] [TIFF OMITTED] T2609A.022
    
    [GRAPHIC] [TIFF OMITTED] T2609A.023
    
    [GRAPHIC] [TIFF OMITTED] T2609A.024
    
    [GRAPHIC] [TIFF OMITTED] T2609A.025
    
    [GRAPHIC] [TIFF OMITTED] T2609A.026
    
    [GRAPHIC] [TIFF OMITTED] T2609A.027
    
    [GRAPHIC] [TIFF OMITTED] T2609A.028
    
    [GRAPHIC] [TIFF OMITTED] T2609A.029
    
    [GRAPHIC] [TIFF OMITTED] T2609A.030
    
    [GRAPHIC] [TIFF OMITTED] T2609A.031
    
    [GRAPHIC] [TIFF OMITTED] T2609A.032
    
    [GRAPHIC] [TIFF OMITTED] T2609A.033
    
    [GRAPHIC] [TIFF OMITTED] T2609A.034
    
    [GRAPHIC] [TIFF OMITTED] T2609A.035
    
    [GRAPHIC] [TIFF OMITTED] T2609A.036
    
    [GRAPHIC] [TIFF OMITTED] T2609A.037
    
    [GRAPHIC] [TIFF OMITTED] T2609A.038
    
    [GRAPHIC] [TIFF OMITTED] T2609A.039
    
    [GRAPHIC] [TIFF OMITTED] T2609A.040
    
    [GRAPHIC] [TIFF OMITTED] T2609A.041
    
    [GRAPHIC] [TIFF OMITTED] T2609A.042
    
    [GRAPHIC] [TIFF OMITTED] T2609A.043
    
    [GRAPHIC] [TIFF OMITTED] T2609A.044
    
    [GRAPHIC] [TIFF OMITTED] T2609A.045
    
    [GRAPHIC] [TIFF OMITTED] T2609A.046
    
    [GRAPHIC] [TIFF OMITTED] T2609A.047
    
    [GRAPHIC] [TIFF OMITTED] T2609A.048
    
    [GRAPHIC] [TIFF OMITTED] T2609A.049
    
    [GRAPHIC] [TIFF OMITTED] T2609A.050
    
    [GRAPHIC] [TIFF OMITTED] T2609A.051
    
    [GRAPHIC] [TIFF OMITTED] T2609A.052
    
    [GRAPHIC] [TIFF OMITTED] T2609A.053
    
    [GRAPHIC] [TIFF OMITTED] T2609A.054
    
    [GRAPHIC] [TIFF OMITTED] T2609A.055
    
    [GRAPHIC] [TIFF OMITTED] T2609A.056
    
    [GRAPHIC] [TIFF OMITTED] T2609A.057
    
    [GRAPHIC] [TIFF OMITTED] T2609A.058
    
    [GRAPHIC] [TIFF OMITTED] T2609A.059
    
    [GRAPHIC] [TIFF OMITTED] T2609A.060
    
    [GRAPHIC] [TIFF OMITTED] T2609A.061
    
    [GRAPHIC] [TIFF OMITTED] T2609A.062
    
    [GRAPHIC] [TIFF OMITTED] T2609A.063
    
    [GRAPHIC] [TIFF OMITTED] T2609A.064
    
    [GRAPHIC] [TIFF OMITTED] T2609A.065
    
    [GRAPHIC] [TIFF OMITTED] T2609A.066
    
    [GRAPHIC] [TIFF OMITTED] T2609A.067
    
    [GRAPHIC] [TIFF OMITTED] T2609A.068
    
    [GRAPHIC] [TIFF OMITTED] T2609A.069
    
    [GRAPHIC] [TIFF OMITTED] T2609A.070
    
    [GRAPHIC] [TIFF OMITTED] T2609A.071
    
    [GRAPHIC] [TIFF OMITTED] T2609A.072
    
    [GRAPHIC] [TIFF OMITTED] T2609A.073
    
    [GRAPHIC] [TIFF OMITTED] T2609A.074
    
    [GRAPHIC] [TIFF OMITTED] T2609A.075
    
    [GRAPHIC] [TIFF OMITTED] T2609A.076
    
    [GRAPHIC] [TIFF OMITTED] T2609A.077
    
    [GRAPHIC] [TIFF OMITTED] T2609A.078
    
    [GRAPHIC] [TIFF OMITTED] T2609A.079
    
    [GRAPHIC] [TIFF OMITTED] T2609A.080
    
    [GRAPHIC] [TIFF OMITTED] T2609A.081
    
    [GRAPHIC] [TIFF OMITTED] T2609A.082
    
    [GRAPHIC] [TIFF OMITTED] T2609A.083
    
    [GRAPHIC] [TIFF OMITTED] T2609A.084
    
    [GRAPHIC] [TIFF OMITTED] T2609A.085
    
    [GRAPHIC] [TIFF OMITTED] T2609A.086
    
    [GRAPHIC] [TIFF OMITTED] T2609A.087
    
    [GRAPHIC] [TIFF OMITTED] T2609A.088
    
    [GRAPHIC] [TIFF OMITTED] T2609A.089
    
    [GRAPHIC] [TIFF OMITTED] T2609A.090
    
    [GRAPHIC] [TIFF OMITTED] T2609A.091
    
    [GRAPHIC] [TIFF OMITTED] T2609A.092
    
    [GRAPHIC] [TIFF OMITTED] T2609A.093
    
    [GRAPHIC] [TIFF OMITTED] T2609A.094
    
    [GRAPHIC] [TIFF OMITTED] T2609A.095
    
    [GRAPHIC] [TIFF OMITTED] T2609A.096
    
    [GRAPHIC] [TIFF OMITTED] T2609A.097
    
    [GRAPHIC] [TIFF OMITTED] T2609A.098
    
    [GRAPHIC] [TIFF OMITTED] T2609A.099
    
    [GRAPHIC] [TIFF OMITTED] T2609A.100
    
    [GRAPHIC] [TIFF OMITTED] T2609A.101
    
    [GRAPHIC] [TIFF OMITTED] T2609A.102
    
    [GRAPHIC] [TIFF OMITTED] T2609A.103
    
    [GRAPHIC] [TIFF OMITTED] T2609A.104
    
    [GRAPHIC] [TIFF OMITTED] T2609A.105
    
    [GRAPHIC] [TIFF OMITTED] T2609A.106
    
    [GRAPHIC] [TIFF OMITTED] T2609A.107
    
    [GRAPHIC] [TIFF OMITTED] T2609A.108
    
    [GRAPHIC] [TIFF OMITTED] T2609A.109
    
    [GRAPHIC] [TIFF OMITTED] T2609A.110
    
    [GRAPHIC] [TIFF OMITTED] T2609A.111
    
    [GRAPHIC] [TIFF OMITTED] T2609A.112
    
    [GRAPHIC] [TIFF OMITTED] T2609A.113
    
    [GRAPHIC] [TIFF OMITTED] T2609A.114
    
    [GRAPHIC] [TIFF OMITTED] T2609A.115
    
    [GRAPHIC] [TIFF OMITTED] T2609A.116
    
    [GRAPHIC] [TIFF OMITTED] T2609A.117
    
    [GRAPHIC] [TIFF OMITTED] T2609A.118
    
    [GRAPHIC] [TIFF OMITTED] T2609A.119
    
    [GRAPHIC] [TIFF OMITTED] T2609A.120
    
    [GRAPHIC] [TIFF OMITTED] T2609A.121
    
    [GRAPHIC] [TIFF OMITTED] T2609A.122
    
    [GRAPHIC] [TIFF OMITTED] T2609A.123
    
    [GRAPHIC] [TIFF OMITTED] T2609A.124
    
    [GRAPHIC] [TIFF OMITTED] T2609A.125
    
    [GRAPHIC] [TIFF OMITTED] T2609A.126
    
    [GRAPHIC] [TIFF OMITTED] T2609A.127
    
    [GRAPHIC] [TIFF OMITTED] T2609A.128
    
    [GRAPHIC] [TIFF OMITTED] T2609A.129
    
    [GRAPHIC] [TIFF OMITTED] T2609A.130
    
    [GRAPHIC] [TIFF OMITTED] T2609A.131
    
    [GRAPHIC] [TIFF OMITTED] T2609A.132
    
    [GRAPHIC] [TIFF OMITTED] T2609A.133
    
    [GRAPHIC] [TIFF OMITTED] T2609A.134
    
    [GRAPHIC] [TIFF OMITTED] T2609A.135
    
    [GRAPHIC] [TIFF OMITTED] T2609A.136
    
    [GRAPHIC] [TIFF OMITTED] T2609A.137
    
    [GRAPHIC] [TIFF OMITTED] T2609A.138
    
    [GRAPHIC] [TIFF OMITTED] T2609A.139
    
    [GRAPHIC] [TIFF OMITTED] T2609A.140
    
    [GRAPHIC] [TIFF OMITTED] T2609A.141
    
    [GRAPHIC] [TIFF OMITTED] T2609A.142
    
    [GRAPHIC] [TIFF OMITTED] T2609A.143
    
    [GRAPHIC] [TIFF OMITTED] T2609A.144
    
    [GRAPHIC] [TIFF OMITTED] T2609A.145
    
    [GRAPHIC] [TIFF OMITTED] T2609A.146
    
    [GRAPHIC] [TIFF OMITTED] T2609A.147
    
    [GRAPHIC] [TIFF OMITTED] T2609A.148
    
    [GRAPHIC] [TIFF OMITTED] T2609A.149
    
    [GRAPHIC] [TIFF OMITTED] T2609A.150
    
    [GRAPHIC] [TIFF OMITTED] T2609A.151
    
    [GRAPHIC] [TIFF OMITTED] T2609A.152
    
    [GRAPHIC] [TIFF OMITTED] T2609A.153
    
    [GRAPHIC] [TIFF OMITTED] T2609A.154
    
    [GRAPHIC] [TIFF OMITTED] T2609A.155
    
    [GRAPHIC] [TIFF OMITTED] T2609A.156
    
    [GRAPHIC] [TIFF OMITTED] T2609A.157
    
    [GRAPHIC] [TIFF OMITTED] T2609A.158
    
    [GRAPHIC] [TIFF OMITTED] T2609A.159
    
    [GRAPHIC] [TIFF OMITTED] T2609A.160
    
    [GRAPHIC] [TIFF OMITTED] T2609A.161
    
    [GRAPHIC] [TIFF OMITTED] T2609A.162
    
    [GRAPHIC] [TIFF OMITTED] T2609A.163
    
    [GRAPHIC] [TIFF OMITTED] T2609A.164
    
    [GRAPHIC] [TIFF OMITTED] T2609A.165
    
    [GRAPHIC] [TIFF OMITTED] T2609A.166
    
    [GRAPHIC] [TIFF OMITTED] T2609A.167
    
    [GRAPHIC] [TIFF OMITTED] T2609A.168
    
    [GRAPHIC] [TIFF OMITTED] T2609A.169
    
    [GRAPHIC] [TIFF OMITTED] T2609A.170
    
    [GRAPHIC] [TIFF OMITTED] T2609A.171
    
    [GRAPHIC] [TIFF OMITTED] T2609A.172
    
    [GRAPHIC] [TIFF OMITTED] T2609A.173
    
    [GRAPHIC] [TIFF OMITTED] T2609A.174
    
    [GRAPHIC] [TIFF OMITTED] T2609A.175
    
    [GRAPHIC] [TIFF OMITTED] T2609A.176
    
    [GRAPHIC] [TIFF OMITTED] T2609A.177
    
    [GRAPHIC] [TIFF OMITTED] T2609A.178
    
    [GRAPHIC] [TIFF OMITTED] T2609A.179
    
    [GRAPHIC] [TIFF OMITTED] T2609A.180
    
    [GRAPHIC] [TIFF OMITTED] T2609A.181
    
    [GRAPHIC] [TIFF OMITTED] T2609A.182
    
    [GRAPHIC] [TIFF OMITTED] T2609A.183
    
    [GRAPHIC] [TIFF OMITTED] T2609A.184
    
    [GRAPHIC] [TIFF OMITTED] T2609A.185
    
    [GRAPHIC] [TIFF OMITTED] T2609A.186
    
    [GRAPHIC] [TIFF OMITTED] T2609A.187
    
    [GRAPHIC] [TIFF OMITTED] T2609A.188
    
    [GRAPHIC] [TIFF OMITTED] T2609A.189
    
    [GRAPHIC] [TIFF OMITTED] T2609A.190
    
    [GRAPHIC] [TIFF OMITTED] T2609A.191
    
    [GRAPHIC] [TIFF OMITTED] T2609A.192
    
    [GRAPHIC] [TIFF OMITTED] T2609A.193
    
    [GRAPHIC] [TIFF OMITTED] T2609A.194
    
    [GRAPHIC] [TIFF OMITTED] T2609A.195
    
    [GRAPHIC] [TIFF OMITTED] T2609A.196
    
    [GRAPHIC] [TIFF OMITTED] T2609A.197
    
    [GRAPHIC] [TIFF OMITTED] T2609A.198
    
    [GRAPHIC] [TIFF OMITTED] T2609A.199
    
    [GRAPHIC] [TIFF OMITTED] T2609A.200
    
    [GRAPHIC] [TIFF OMITTED] T2609A.201
    
    [GRAPHIC] [TIFF OMITTED] T2609A.202
    
    [GRAPHIC] [TIFF OMITTED] T2609A.203
    
    [GRAPHIC] [TIFF OMITTED] T2609A.204
    
    [GRAPHIC] [TIFF OMITTED] T2609A.205
    
    [GRAPHIC] [TIFF OMITTED] T2609A.206
    
    [GRAPHIC] [TIFF OMITTED] T2609A.207
    
    [GRAPHIC] [TIFF OMITTED] T2609A.208
    
    [GRAPHIC] [TIFF OMITTED] T2609A.209
    
    [GRAPHIC] [TIFF OMITTED] T2609A.210
    
    [GRAPHIC] [TIFF OMITTED] T2609A.211
    
    [GRAPHIC] [TIFF OMITTED] T2609A.212
    
    [GRAPHIC] [TIFF OMITTED] T2609A.213
    
    [GRAPHIC] [TIFF OMITTED] T2609A.214
    
    [GRAPHIC] [TIFF OMITTED] T2609A.215
    
    [GRAPHIC] [TIFF OMITTED] T2609A.216
    
    [GRAPHIC] [TIFF OMITTED] T2609A.217
    
    [GRAPHIC] [TIFF OMITTED] T2609A.218
    
    [GRAPHIC] [TIFF OMITTED] T2609A.219
    
    [GRAPHIC] [TIFF OMITTED] T2609A.220
    
    [GRAPHIC] [TIFF OMITTED] T2609A.221
    
    [GRAPHIC] [TIFF OMITTED] T2609A.222
    
    [GRAPHIC] [TIFF OMITTED] T2609A.223
    
    [GRAPHIC] [TIFF OMITTED] T2609A.224
    
    [GRAPHIC] [TIFF OMITTED] T2609A.225
    
    [GRAPHIC] [TIFF OMITTED] T2609A.226
    
    [GRAPHIC] [TIFF OMITTED] T2609A.227
    
    [GRAPHIC] [TIFF OMITTED] T2609A.228
    
    [GRAPHIC] [TIFF OMITTED] T2609A.229
    
    [GRAPHIC] [TIFF OMITTED] T2609A.230
    
    [GRAPHIC] [TIFF OMITTED] T2609A.231
    
    [GRAPHIC] [TIFF OMITTED] T2609A.232
    
    [GRAPHIC] [TIFF OMITTED] T2609A.233
    
    [GRAPHIC] [TIFF OMITTED] T2609A.234
    
    [GRAPHIC] [TIFF OMITTED] T2609A.235
    
    [GRAPHIC] [TIFF OMITTED] T2609A.236
    
    [GRAPHIC] [TIFF OMITTED] T2609A.237
    
    [GRAPHIC] [TIFF OMITTED] T2609A.238
    
    [GRAPHIC] [TIFF OMITTED] T2609A.239
    
    [GRAPHIC] [TIFF OMITTED] T2609A.240
    
    [GRAPHIC] [TIFF OMITTED] T2609A.241
    
    [GRAPHIC] [TIFF OMITTED] T2609A.242
    
    [GRAPHIC] [TIFF OMITTED] T2609A.243
    
    [GRAPHIC] [TIFF OMITTED] T2609A.244
    
    [GRAPHIC] [TIFF OMITTED] T2609A.245
    
    [GRAPHIC] [TIFF OMITTED] T2609A.246
    
    [GRAPHIC] [TIFF OMITTED] T2609A.247
    
    [GRAPHIC] [TIFF OMITTED] T2609A.248
    
    [GRAPHIC] [TIFF OMITTED] T2609A.249
    
    [GRAPHIC] [TIFF OMITTED] T2609A.250
    
    [GRAPHIC] [TIFF OMITTED] T2609A.251
    
    [GRAPHIC] [TIFF OMITTED] T2609A.252
    
    [GRAPHIC] [TIFF OMITTED] T2609A.253
    
    [GRAPHIC] [TIFF OMITTED] T2609A.254
    
    [GRAPHIC] [TIFF OMITTED] T2609A.255
    
    [GRAPHIC] [TIFF OMITTED] T2609A.256
    
    [GRAPHIC] [TIFF OMITTED] T2609A.257
    
    [GRAPHIC] [TIFF OMITTED] T2609A.258
    
    [GRAPHIC] [TIFF OMITTED] T2609A.259
    
    [GRAPHIC] [TIFF OMITTED] T2609A.260
    
    [GRAPHIC] [TIFF OMITTED] T2609A.261
    
    [GRAPHIC] [TIFF OMITTED] T2609A.262
    
    [GRAPHIC] [TIFF OMITTED] T2609A.263
    
    [GRAPHIC] [TIFF OMITTED] T2609A.264
    
    [GRAPHIC] [TIFF OMITTED] T2609A.265
    
    [GRAPHIC] [TIFF OMITTED] T2609A.266
    
    [GRAPHIC] [TIFF OMITTED] T2609A.267
    
    [GRAPHIC] [TIFF OMITTED] T2609A.268
    
    [GRAPHIC] [TIFF OMITTED] T2609A.269
    
    [GRAPHIC] [TIFF OMITTED] T2609A.270
    
    [GRAPHIC] [TIFF OMITTED] T2609A.271
    
    [GRAPHIC] [TIFF OMITTED] T2609A.272
    
    [GRAPHIC] [TIFF OMITTED] T2609A.273
    
    [GRAPHIC] [TIFF OMITTED] T2609A.274
    
    [GRAPHIC] [TIFF OMITTED] T2609A.275
    
    [GRAPHIC] [TIFF OMITTED] T2609A.276
    
    [GRAPHIC] [TIFF OMITTED] T2609A.277
    
    [GRAPHIC] [TIFF OMITTED] T2609A.278
    
    [GRAPHIC] [TIFF OMITTED] T2609A.279
    
    [GRAPHIC] [TIFF OMITTED] T2609A.280
    
    [GRAPHIC] [TIFF OMITTED] T2609A.281
    
    [GRAPHIC] [TIFF OMITTED] T2609A.282
    
    [GRAPHIC] [TIFF OMITTED] T2609A.283
    
    [GRAPHIC] [TIFF OMITTED] T2609A.284
    
    [GRAPHIC] [TIFF OMITTED] T2609A.285
    
    [GRAPHIC] [TIFF OMITTED] T2609A.286
    
    [GRAPHIC] [TIFF OMITTED] T2609A.287
    
    [GRAPHIC] [TIFF OMITTED] T2609A.288
    
    [GRAPHIC] [TIFF OMITTED] T2609A.289
    
    [GRAPHIC] [TIFF OMITTED] T2609A.290
    
    [GRAPHIC] [TIFF OMITTED] T2609A.291
    
    [GRAPHIC] [TIFF OMITTED] T2609A.292
    
    [GRAPHIC] [TIFF OMITTED] T2609A.293
    
    [GRAPHIC] [TIFF OMITTED] T2609A.294
    
    [GRAPHIC] [TIFF OMITTED] T2609A.295
    
    [GRAPHIC] [TIFF OMITTED] T2609A.296
    
    [GRAPHIC] [TIFF OMITTED] T2609A.297
    
    [GRAPHIC] [TIFF OMITTED] T2609A.298
    
    [GRAPHIC] [TIFF OMITTED] T2609A.299
    
    [GRAPHIC] [TIFF OMITTED] T2609A.300
    
    [GRAPHIC] [TIFF OMITTED] T2609A.301
    
    [GRAPHIC] [TIFF OMITTED] T2609A.302
    
    [GRAPHIC] [TIFF OMITTED] T2609A.303
    
    [GRAPHIC] [TIFF OMITTED] T2609A.304
    
    [GRAPHIC] [TIFF OMITTED] T2609A.305
    
    [GRAPHIC] [TIFF OMITTED] T2609A.306
    
    [GRAPHIC] [TIFF OMITTED] T2609A.307
    
    [GRAPHIC] [TIFF OMITTED] T2609A.308
    
    [GRAPHIC] [TIFF OMITTED] T2609A.309
    
    [GRAPHIC] [TIFF OMITTED] T2609A.310
    
    [GRAPHIC] [TIFF OMITTED] T2609A.311
    
    [GRAPHIC] [TIFF OMITTED] T2609A.312
    
    [GRAPHIC] [TIFF OMITTED] T2609A.313
    
    [GRAPHIC] [TIFF OMITTED] T2609A.314
    
    [GRAPHIC] [TIFF OMITTED] T2609A.315
    
    [GRAPHIC] [TIFF OMITTED] T2609A.316
    
    [GRAPHIC] [TIFF OMITTED] T2609A.317
    
    [GRAPHIC] [TIFF OMITTED] T2609A.318
    
    [GRAPHIC] [TIFF OMITTED] T2609A.319
    
    [GRAPHIC] [TIFF OMITTED] T2609A.320
    
    [GRAPHIC] [TIFF OMITTED] T2609A.321
    
    [GRAPHIC] [TIFF OMITTED] T2609A.322
    
    [GRAPHIC] [TIFF OMITTED] T2609A.323
    
    [GRAPHIC] [TIFF OMITTED] T2609A.324
    
    [GRAPHIC] [TIFF OMITTED] T2609A.325
    
    [GRAPHIC] [TIFF OMITTED] T2609A.326
    
    [GRAPHIC] [TIFF OMITTED] T2609A.327
    
    [GRAPHIC] [TIFF OMITTED] T2609A.328
    
    [GRAPHIC] [TIFF OMITTED] T2609A.329
    
    [GRAPHIC] [TIFF OMITTED] T2609A.330
    
    [GRAPHIC] [TIFF OMITTED] T2609A.331
    
    [GRAPHIC] [TIFF OMITTED] T2609A.332
    
    [GRAPHIC] [TIFF OMITTED] T2609A.333
    
    [GRAPHIC] [TIFF OMITTED] T2609A.334
    
    [GRAPHIC] [TIFF OMITTED] T2609A.335
    
    [GRAPHIC] [TIFF OMITTED] T2609A.336
    
    [GRAPHIC] [TIFF OMITTED] T2609A.337
    
    [GRAPHIC] [TIFF OMITTED] T2609A.338
    
    [GRAPHIC] [TIFF OMITTED] T2609A.339
    
    [GRAPHIC] [TIFF OMITTED] T2609A.340
    
    [GRAPHIC] [TIFF OMITTED] T2609A.341
    
    [GRAPHIC] [TIFF OMITTED] T2609A.342
    
    [GRAPHIC] [TIFF OMITTED] T2609A.343
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Deer, M.R........................................................   363
Galvin, D.P......................................................   231
Hatfield, N.R....................................................   135
Jones, Marshall..................................................   167
Kitsos, T.R......................................................   277
Klee, A.R........................................................     1
Lamb, R.J 


McDivitt, J.H....................................................   337
Norton, Hon. G.A.................................................     1
Owens, Glenda....................................................   299
Trezise, J.D.....................................................     1


                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
Abandoned Mine Land Budget Reduction.............................    47
Amphibian Disappearance Research.................................    51
ANWR Lease Sales.................................................    45
Arctic National Wildlife Refuge..................................    29
Balancing Use with Conservation..................................     4
Cerro Grande Fire Report.........................................    38
Conservation Spending Category...................................    22
Conservation Spending Sub-Categories.............................    21
Construction Design and Waste....................................    31
Courts and Endangered Species....................................    56
Endangered Species Act 


Endangered Species Listings......................................    50
Environmental Degradation from Illegal Immigration...............    44
Expanded Purposes of State-Side Program..........................    23
Fire Program.....................................................     5
Fish and Wildlife Service Land Acquisition.......................    48
Fractionated Heirships...........................................    32
GAO Report on the Everglades.....................................    36
Habitat Protection...............................................    54
Hanford Reach Oil and Gas Exploration............................    38
Indian Casino Approvals..........................................    31
Indian Diabetes..................................................    49
Indian Education.................................................     4
Indian Trust Reform..............................................     5
Land Acquisition in Southeastern Arizona.........................    43
Land and Water Conservation Fund.................................     3
Land Conservation Preservation and Infrastructure Improvement 
  Fund...........................................................    20
Landowner Incentive/Private Stewardship Programs.................    27
Lower Snake River Dams...........................................    29
LWCF Funding.....................................................    20
LWCF State-Side Formula..........................................    39
Maintenance Backlog Funding......................................    35
Moccasin Bend....................................................    46
National Monument Management.....................................    18
National Monuments...............................................    40
National Water Quality Assessment Program........................    28
National Wildlife Refuge Fund....................................    57
Natural Gas......................................................    47
NPS Maintenance Backlog 


Opening Remarks, Congressman Dicks...............................     1
Opening Statement of Secretary Norton............................     2
Payments in Lieu of Taxes........................................    56
Private Sector Conservation Efforts..............................    52
Questions for the Record from:
    Congressman Skeen............................................    88
    Congressman Regula...........................................    94
    Congressman Kolbe............................................    96
    Congressman Nethercutt.......................................    97
    Congressman Taylor...........................................    99
    Congressman Obey.............................................   100
    Congressman Dicks............................................   108
    Congressman Moran............................................   116
    Congressman Hinchey..........................................   130
Questions for the Record:
    Abandoned Mine Land Reclamation..............................    82
    Arctic National Wildlife Refuge..............................    66
    Backlog Maintenance..........................................    60
    Bureau of Land Management....................................    76
    Charging Overhead Cost to Programs...........................    68
    Cost Sharing for Visitor Centers.............................    71
    Endangered Species...........................................    69
    Everglades/South Florida Ecosystem Restoration...............    62
    Fish and Wildlife Service Land Acquisition...................    64
    Land and Water Conservation Fund.............................    58
    National Parks Operation and Maintenance.....................    61
    National Wildlife Refuge Fund................................    66
    San Carlos Irrigation Project................................    75
    Territorial and Insular Affairs..............................    85
    United Mine Workers Health Benefits Fund.....................    85
    USGS Cuts....................................................    72
    Wildland Fire Program........................................    80
Remarks of Mr. Wamp..............................................    44
San Carlos Indian Irrigation Project.............................    18
San Carlos Irrigation Project....................................    24
Sonoran Desert Conservation Plan.................................    25
State Wildlife Grants............................................    27
State-Side Funding Uses..........................................    36
State-Side Funding...............................................    19
U.S. Geological Survey Reductions 


Upper San Pedro Partnership......................................    26
USGS Science.....................................................    37
Western Archeological and Conservation Center....................    42
Wildlife Grants 


Written Statement of Secretary Norton............................     6
                       Bureau of Land Management

Questions for the Record:
    Energy and Minerals..........................................   151
    Facilities Maintenance.......................................   161
    Land and Resource Information System.........................   156
    Lands and Realty Management..................................   152
    National Landscape Conservation System.......................   159
    Oregon and California Grant Lands............................   157
    Range Management.............................................   146
    Resource Management Planning.................................   154
    Threatened and Endangered Species Management.................   150
    Wild Horse and Burro Management..............................   149
    Wildland Fire Management.....................................   162
Written Statement of Nina Hatfield, Acting Director..............   135

                     U.S. Fish and Wildlife Service

Questions for the Record:
    Alaska Subsistence...........................................   213
    Bear River National Wildlife Refuge..........................   216
    Carlsbad Endangered Species Office...........................   201
    Comprehensive Conservation Plans.............................   198
    Concho Water Snake...........................................   202
    Cooperative Endangered Species Conservation Fund.............   219
    Endangered Species...........................................   223
    Fisheries....................................................   208
    Fixed Costs..................................................   199
    Joint Ventures...............................................   205
    Land Acquisition Management..................................   200
    Land Acquisition.............................................   180
    Law Enforcement..............................................   206
    Midway Atoll National Refuge.................................   217
    Minimum Staffing Needs on Refuges............................   203
    National Conservation Training Center........................   215
    National Wildlife Refuge Fund................................   221
    North American Wetlands Conservation Act.....................   218
    Puget Sound and Coastal Washington Hatchery Reform Project...   211
    Recreation Fee Demonstration Program.........................   222
    State Wildlife Grants........................................   203
    Tern Island Seawall..........................................   216
Written Statement of Marshall Jones, Acting Director.............   167

                         National Park Service

Questions for the Record:
    Backlog Maintenance..........................................   243
    Concessions Policy...........................................   250
    Denver Service Center........................................   234
    Fire Hazards.................................................   253
    Hydropower Assistance........................................   254
    National Parks Conservation Association......................   254
    Park Housing.................................................   247
    Program Coordination.........................................   253
    Recreational Fee Demonstration Program.......................   245
    Rivers and Trails Program....................................   251
    Snowmobiles/Personal Watercraft..............................   249
    Urban Park and Recreation Fund/LWCF..........................   258
Written Statement of Denis Galvin, Deputy Director...............   231

                         U.S. Geological Survey

Questions for the Record.........................................   261

                      Minerals Management Service

Questions for the Record:
    Oil Spill Research...........................................   289
    Royalty Re-engineering Initiative............................   290
    Royalty-in-Kind..............................................   288
    Sale 181.....................................................   294
    State Share of Leasing Revenues..............................   294
    Streamlining.................................................   289
Written Statement of Thomas Kitsos, Acting Director..............   277

          Office of Surface Mining Reclamation and Enforcement

Questions for the Record:
    Abandoned Mine Lands Trust Fund..............................   304
    Appalachian Clean Streams....................................   327
    Emergency Supplemental Appropriation.........................   325
    Environmental Protection.....................................   332
    Federal Reclamation Program..................................   326
    Regulation and Technology....................................   316
    United Mine Workers Health Fund..............................   323
Written Statement of Glenda Owens, Acting Director...............   299

                        Bureau of Indian Affairs

Questions for the Record:
    Construction.................................................   352
    Education....................................................   348
    Law Enforcement..............................................   346
Written Statement of James McDivitt, Deputy Assistant Secretary..   337

                  National Indian Gambling Commission

Questions for the Record.........................................   367
Written Statement of Montie Deer, Chairman.......................   363

                       Office of Insular Affairs

Questions for the Record.........................................
    American Samoa...............................................   383
    Brown Tree Snake Program.....................................   392
    Compact of Free Association..................................   387
    Guam and Commonwealth of the Northern Mariana Islands........   385
    Hawaiian Natives.............................................   381
    Virgin Islands...............................................   382

                      DOI Departmental Management

Written Statement of Robert Lamb, Acting Assistant Secretary--
  Policy, Management and Budget..................................   395

                                <greek-d>



</pre></body></html>
